Report No. DODIG-2013-058                 March 22, 2013




               Special Plans and Operations




         Assessment of U.S. Efforts to Develop the
        Afghan National Security Forces Command,
             Control, and Coordination System
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                  Report                        www.dodig.mil/hotline
                                                                                                                                                                                  Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
DISTRIBUTION:

SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE/UNITED STATES
  FORCES – AFGHANISTAN
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE JOINT
  COMMAND
COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION (NATO) TRAINING
  MISSION – AFGHANISTAN
COMMANDER, NATO AIR TRAINING COMMAND – AFGHANISTAN
COMMANDER, 9TH AIR AND SPACE EXPEDITIONARY TASK FORCE –
  AFGHANISTAN
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                          March 22, 2013




                    Executive Summary: Assessment of
                    U.S. Government and Coalition Efforts
                    to Develop the Afghan National Army
                    Command, Control, and Coordination
                    System
Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Afghanistan, the Military Departments, and agencies
responsible for and engaged in training, mentoring, equipping, fielding and other aspects of the
development of the Ministry of Defense, General Staff, and Afghan National Security Forces
(ANSF) should read this report.

Synopsis
We found that the extensive U.S. and Coalition effort to develop security sector capacity in
Afghanistan had produced a marginally sufficient Afghan National Army (ANA) Command
and Control (C2) and Coordination system that was adequately resilient and at least capable
of providing minimal essential support for the transition to Afghan lead in plans and
operations by 2014. Coalition enablers enhance ANA capability and effectiveness to conduct
C2.

The ANA has demonstrated an improving capability to conduct counterinsurgency (COIN)
missions independently, and its units can orchestrate basic coordination and communication with
other elements of the ANSF. We found that their C2 capability is marginal and largely
dependent upon Coalition support.

Both the ANA and the Afghan National Police (ANP) capabilities continue to develop
countrywide; and they collectively demonstrated initiative, coordination, and resilience in
responding to the April 15, 2012, insurgent attacks in Kabul. The ANSF’s response to these
complex, coordinated assaults on government installations and personnel afforded the DoD IG
team, then present in Kabul, an opportunity to assess its command and control capabilities at the
strategic and operational level through U.S. and Coalition advisors present. ANSF actions in
response to the incident were encouraging and timely, demonstrating moderate situational
awareness and command and control progress.

The ANA’s progress in developing its C2 capabilities may be hampered or even reversed if a
number of resource-intensive, high risk challenges are not properly addressed and resolved.
These include the difficult challenge of adapting to evolving organizational structures; the
limited command authority to remove ineffective senior officers; various logistical impediments;
the limited capacity to integrate relatively complex technology and automation; and the
significant reliance on U.S. and Coalition enablers.



                                                  i
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                         March 22, 2013



Notable Progress
The assessment team noted five main areas of progress:

   •   development and publication of the ANA Operational Plan NAWEED, the Afghan-led
       operational campaign planning effort for Afghan Solar Year 1391 (SY1391);
   •   coalition development of an effective Afghan Special Operations Force (SOF) capability;
   •   development by the International Security Assistance Force Joint Command (IJC) of
       “ANSF in the Lead” Effects-Based Metrics;
   •   Operation SELAB, a one-time logistics operation focused on pushing multiple classes of
       supplies to the Regional Logistics Support Centers (RLSCs) over a 15-day period to
       increase stockage levels; and
   •   ANSF performance during the April 15, 2012, terrorist attacks in Kabul and some
       provinces.

Challenges – Areas of Concern
Evolving Organizational C2 Constructs
Evolving and emerging Afghan National Security Forces organizational constructs complicated
the development of the ANA Command and Control System. For example, during our
assessment, four key command and control nodes were being established or undergoing
significant change in organizational mission and structure:
   •   the ANA Ground Forces Command (GFC),
   •   the National Military Command Center (NMCC),
   •   the Afghan National Army Special Operations Command (ANASOC), and
   •   the Air Command and Control Center (ACCC).
During 2012, the National Military Command Center planned to change its title to the National
Military Operations Center with a yet to be defined change of mission; the Afghan National
Army Special Operations Command expanded its mission set and force structure; and the ACCC
changed its command and control role in ANA aviation. Further, 40 regional and provincial
Operations Coordination Centers (OCCs) were at different stages of maturity in terms of
manning, leadership, and equipment with varying levels of ability to interact with their
provincial, regional, and national level command centers.

Not all of the organizational restructuring underway appeared sufficiently synchronized to
achieve ANA C2 unity of effort by 2013, the date the Commander of International Security
Assistance Force (ISAF) set as a critical milestone for the ANA to assume a greater role in
planning and operations while a significant Coalition force still remained in country.

The extent of organizational change and complexity introduced into the existing C2 structure and
that which still needed to be assimilated within the ANA presented a significant challenge to the
maturation of its overall C2 structure. These evolving new C2 nodes may internally stress the
ANA capacity for developing standard operating procedures, exercising staff actions to achieve
proficiency, and coordinating real world operations.



                                                 ii
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                            March 22, 2013


Wide-ranging organizational changes could delay overall ANA C2 development and delay the
ANA transition to fully independent and sustainable lead in security operations. (Observation 1)

Establishment of Ground Forces Command
The Coalition began developing the Ground Forces Command in April 2009 and it is scheduled
to achieve full operational capability for command and control of ANA forces by October 2012.
However, it may take longer for the Ministry of Defense (MoD), General Staff (GS), and some
Corps Commanders to embrace this new organization. Several ANSF stakeholders expressed
their belief that GFC was an unnecessary, intermediate layer of bureaucracy. A number of
Afghan security officials conveyed doubts about the long-term existence of the GFC HQ after
2014. (Observation 2)

Air Command and Control Center
The Afghan Air Force Air Command and Control Center did not consistently function as a
command and control node and was arguably a redundant layer of coordination with
questionable effectiveness. ANA leaders appeared comfortable with both national and regional
level missions being centrally controlled, prioritized, and retasked at the GS Operations
Directorate (G3) air plans office, rather than at the ACCC. (Observation 3)

Restrictions on Command Authority
Senior Commanders within the ANA consistently expressed frustration at not having the power
or authority to remove subordinate officers for cause, and that this inability impeded the effective
command and morale of their forces. In order to exercise command, senior leaders needed
appropriate, fair, and clearly detailed mechanisms to remove ineffective or incapable
subordinates, supported by the Government of the Independent Republic of Afghanistan
(GIRoA). (Observation 4)

Operations Coordination Centers
The creation of Operations Coordination Centers represented an attempt to give the ANSF a
common operating picture (COP) and facilitate information sharing between the ANA, ANP, and
National Directorate of Security (NDS).

Development of these coordination centers was a complex and at times apparently convoluted
effort to join disparate stove-piped personnel, logistics, and administrative systems – challenges
that continued to make the OCC concept of operations a work in progress. Without a joint-
manning document, single logistics support, and a discrete budget and authority to procure
equipment and supplies, the OCCs could remain ineffective, providing inconsistent performance
across Afghanistan. (Observation 5)

Complexity of Technology and Automation
Senior ANA officers, and particularly on the General Staff, repeatedly expressed concern about
the ANA’s inability to cope with the complexity of computer automation and technology
provided by the Coalition that had been intended to enhance ANA command, control, and
communication capabilities.



                                                 iii
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                                         March 22, 2013


They contended that the ANA did not have the capacity to employ, operate, and effectively
maintain sophisticated information technology and automated systems without extensive
Coalition support. We observed that the ANA may not be able to sustain these various systems
after 2014 without continued funding, training, and support as a bridging mechanism.
(Observation 6)

ANA Logistics System
A 2011 Department of Defense Inspector General (DoD IG) report on ANA logistics
sustainment capability highlighted how the lack of a well-understood logistical development plan
hampered an ongoing restructuring of the ANA logistics organization. 1 Our observations during
this visit confirmed the ANA confusion and inefficiencies attendant with the implementation of
new logistics organization. We also determined that the new ANA operational commander –
Ground Forces Command – had little visibility of Corps logistics problems and limited influence
in correcting logistics inequities among the Corps commands. The ANA struggle with its
logistics processes is an ongoing challenge and the logistical system continues to lag operational
development of the ANA. (Observation 7)

Enabler Gap Measurement
Aviation Support. Neither the IJC nor the ANA realized the magnitude of the enabling
capability provided by Coalition aircraft in support of the ANA. Consequently, advisors may not
adequately develop Afghan capabilities or properly shape expectations regarding air support to
the ANSF after 2014. Coalition support for ANA medical evacuation, combat air support,
personnel air movement, and resupply was especially significant. Due to the limited size of the
Afghan Air Force (AAF) fleet, requests for air support too often went directly to IJC without
routing them through the Afghan C2 structure or coordinating through the OCCs. The Coalition
had not captured the totality of the support it provided to the ANA with precision. (Observation
8)

Other Enablers. The ANA depended greatly upon specialized capability enablers from the
Coalition to enhance command and control while supporting security operations. 2 Enabler
capabilities that the ANA currently relies upon, and will continue to need (in varying degrees)
until ANA capability is developed included:
    • Logistics
    • Artillery and Indirect Fires
    • Engineers
    • Intelligence, Surveillance, and Reconnaissance Assets
    • Signals Intelligence,
    • Military Intelligence Companies
    • Counter-measures for Improvised Explosive Devices


1
  DoD IG Report No. 2012-028, “Assessment of U.S. Government and Coalition Efforts to Develop the Logistics
Sustainment Capability of the Afghan National Army,” December 9, 2011.
2
  In order to stay within project scope, this report will not go into detail regarding each individual enabler.



                                                        iv
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                            March 22, 2013


   •   Route Clearance
   •   Medical Support
   •   Information Operations
   •   Military Police

Measuring the gap between current and projected Coalition enablers and final ANA development
goals and capability is important not only for the Afghans, but also for the Coalition, in order to
plan, budget, and equip, for the post 2014 strategic partnership.

Conclusion
The Afghan Command, Control, and Coordination System remained a work in progress. In its
present state of development and given the threat environment, we found the command, control,
and coordination system to be marginally sufficient to respond effectively to insurgent attacks,
like those experienced in Kabul in April 2012, and to conduct effectively other short-term
offensive operations.

However, challenges remained. The ANA C2 system did not yet have the ability to plan and
conduct sustained operations without U.S. and Coalition support. To date, the ANA had only
been effective in conducting offensive operations of short duration due to logistical shortfalls and
limited organic enabler capacity, with heavy reliance on U.S. and Coalition support.

The effort to develop the ANA C2 system by U.S. and Coalition advisors has been marginally
successful. While the ANA Command, Control, and Coordination System in place had gained
capability over the past several years, the system remained fragile and needed significant
Coalition support to ensure successful development of an independent, sustainable C2 capacity
in the foreseeable future.




                                                 v
Report No. DoDIG-2013-058 (Project No. D2012-D00SPO-0085.000)                         March 22, 2013



Recommendations Table


Client                                   Recommendations Requiring No Additional
                                         Comment                   Comments Required

Commander, International Security        1., 2.a, 2.b., 2.c., 4.a., 5, 8.a.,
Assistance Force Joint Command           8.b.

Commander, North Atlantic Treaty         3.a., 3.b., 3.c., 4.b., 4.c., 6.a.,   6.c.
Organization (NATO) Training             6.b., 7.a., 7.b.
Mission - Afghanistan

Please provide comments by April 22, 2013




                                                  vi
Table of Contents
Executive Summary ....................................................................................................................... i
     Recommendations Table .......................................................................................................... vi
Introduction ................................................................................................................................... 1
     Enduring Strategic Partnership Agreement .............................................................................. 3
     Cultural Considerations ............................................................................................................ 3
     The Western Approach to Command and Control ................................................................... 4
     ANSF Command and Control System ...................................................................................... 4
     ANA Command and Control System ....................................................................................... 6
     Summary of ANA C2 ............................................................................................................... 7
Part I - Notable Progress .............................................................................................................. 9
Part II - Command, Control, and Coordination Challenges and Areas of Concern ............ 13
Observation 1: Evolving Organizational Constructs Complicated the Development
of the Afghan National Army Command and Control System............................................... 15
Observation 2: Ground Forces Command Responsibilities were Unclear ........................... 21
Observation 3: The Afghan Air Force Headquarters Air Command and Control
Center Did Not Function as an Effective Command and Control (C2) Node. ...................... 25
Observation 4: ANA Commanders’ Inability to Remove Officers for Cause Negatively
Impacts Effectiveness of Command .......................................................................................... 33
Observation 5: Organizational Structure Impeded Operation Coordination Center
Leadership from Achieving Unity of Effort ............................................................................. 39
Observation 6: Complexity of Automated Systems Exceeds ANSF Capacity to Operate
and Sustain .................................................................................................................................. 43
Observation 7: The ANA Logistics System Did Not Sufficiently Support Command
and Control .................................................................................................................................. 51
Observation 8: Measuring the Air Support Enabler Gap ..................................................... 57
Summary Analysis and Finding: U.S. Efforts to Develop an Effective ANA Command,
Control, and Coordination System Have Yielded a Foundational C2 Capability ................ 61
Appendix A. Scope, Methodology, and Acronyms ................................................................. 75
Appendix B. Summary of Prior Coverage ............................................................................... 79
Appendix C. Criteria ................................................................................................................. 81
Appendix D. Organizations Contacted and Visited ................................................................ 87
Appendix E. Management Comments ..................................................................................... 91
Appendix F. Report Distribution............................................................................................ 101
Page Intentionally Blank
Introduction
This is an assessment by DoD Office of Inspector General, Special Plans and Operations (SPO)
regarding the development of the Afghan National Security Force Command and Control
System. This report focuses on the command and control (C2) of the Afghan National Army
(ANA), along with its coordination efforts through the regional and provincial Operations
Coordination Centers (OCC). Previous SPO reports on Afghan National Security Force subjects
may be viewed at http://www.DoDIG.mil/spo/reports.html.

Objectives
On January 6, 2012, the DoD IG announced the Assessment of U.S. Efforts to Develop the Afghan
National Security Forces Command and Control System (Project No. D2012-D00SPO-0085.000).
With a specific focus on the Afghan National Army, the overall objective of this assessment was
to determine the current status of C2 development and whether the Department of Defense would
complete the development of the Afghan National Security Forces Command and Control
System by 2014.

Specific sub-objectives included:

    •   Assess whether U.S. and Coalition strategy, guidance, plans, and available resources are
        sufficient to create an effective Afghan C2 system.
    •   Determine the status of C2 development in accordance with U.S. plans for withdrawal of
        combat forces by 2014.
    •   Assess the ANA coordination mechanisms, to include the OCCs

Background
In a June 22, 2011, formal announcement, President Obama stated that the U.S. would withdraw
10,000 troops from Afghanistan by the end of 2011, with 23,000 additional troops leaving at the
end of the summer of 2012. After that, according to the President:

                 …our troops will continue coming home at a steady pace as Afghan security
                 forces move into the lead. Our mission will change from combat to support. By
                 2014, this process of transition will be complete, and the Afghan people will be
                 responsible for their own security. 3

Remaining forces would continue the transition to put ANSF in the lead in accordance with the
International Security Assistance Force (ISAF) campaign plan. 4 As troop levels diminished,
DoD IG determined it was important to assess the status of U.S. and coalition efforts to develop


3
  Barack H. Obama, “Remarks by the President on the Way Forward in Afghanistan,” Speeches and Remarks (June
22, 2011), http://www.whitehouse.gov/the-press-office/2011/06/22/remarks-president-way-forward-afghanistan
(July 5, 2012).
4
  Deputy Assistant Secretary of Defense for Afghanistan, Pakistan and Central Asia, official testimony before U.S.
House of Representatives Armed Forces Subcommittee on Oversight and Investigations, 20 June 2012, p. 2.


                                                        1
the ANA C2 system to enable the ANA to assume the lead security role by 2013, with the
transition to be completed by 2014.

As expected, coordinated military planning and approval of the campaign strategy preceded the
President’s announcement. By April 2012, ISAF had revised its Operations Plan (OPLAN)
38302 to integrate the counterinsurgency (COIN) strategy, the development strategy for
Afghanistan, the transition of security responsibility to Afghan lead, and the development of the
ANSF. The revised OPLAN (Revision 6) also integrated the recovery of U.S. surge forces. 5

The transition of security responsibility to Afghan lead was projected to occur in a series of five
transitional phases (Tranches), based on security conditions within provinces and districts. On
May 13, 2012, President Karzai announced Tranche 3 that included Afghan provinces where
now 75 percent of the population resides. On July 02, 2012, Kandahar Province became the first
province in Tranche 3 to transfer security lead to the ANSF. Figure 1 depicts the status of
transition by province up through Tranche 3. Additionally, according to congressional testimony
in June 2012, the ANSF participated in over 90 percent of all operations in Afghanistan and were
in the lead for over 40 percent of these missions. 6

                                       Figure 1. Afghan Transition




                Source: NATO




5
 DoD Report on Progress Toward Security and Stability in Afghanistan, April 2012.
6
 Deputy Assistant Secretary of Defense for Afghanistan, Pakistan and Central Asia, official testimony before U.S.
House of Representatives Armed Forces Subcommittee on Oversight and Investigations, 20 June 2012, p. 2.


                                                        2
Enduring Strategic Partnership Agreement
On May 2, 2012, President Barack Obama and Afghan President Hamid Karzai signed the
Enduring Strategic Partnership Agreement between the Islamic Republic of Afghanistan and the
United States of America, a 10-year strategic partnership agreement (SPA). The SPA
demonstrated the United States’ enduring commitment to strengthen Afghanistan’s sovereignty,
stability, and prosperity and continue cooperation to defeat al-Qaida and its affiliates over time. 7
The signing increased Afghan confidence regarding continued U.S. and Coalition support after
2014 and provided a solid foundation to the advisors’ efforts to develop an effective and
sustainable ANA Command and Control system.

The NATO Chicago Summit followed in May 2012, where national leaders endorsed a plan to
wind down the international combat mission. President Obama, supported by other international
leaders, agreed to an exit strategy based upon a gradual withdrawal of American and foreign
combat troops through 2014. The declaration stated:

                We, the nations contributing to ISAF, and the Government of the Islamic
                Republic of Afghanistan, met today in Chicago to renew our firm commitment
                to a sovereign, secure, and democratic Afghanistan. In line with the strategy
                which we agreed at the Lisbon Summit, ISAF’s mission will be concluded by
                the end of 2014. But thereafter Afghanistan will not stand alone: we reaffirm
                that our close partnership will continue beyond the end of the transition period. 8

In July 2012, potential international donors met in Tokyo to discuss post 2014 support to the
Government of the Islamic Republic of Afghanistan. Afghanistan and the international
community agreed to the Tokyo Framework and a list of priority Afghan reforms regarding
important steps to improve the effectiveness and transparency of international assistance. U.S.
Secretary of State Clinton also announced the United States’ intention to seek sustained levels of
economic assistance for Afghanistan through 2017 at or near the levels the U.S. has provided
over the past decade. 9

Cultural Considerations
The various components of the ANA C2 system operate within a multicultural society marked
by decades of conflict. On matters of command and control, Afghan and western military
cultures differ in their approaches. It took significant time for the two to understand each other’s
cultural complexities, then introduce and adapt western concepts and programs that could be
accepted and implemented by the Afghan security forces. This cultural landscape challenged
Coalition advisors when conveying western concepts at all organizational levels. Afghan
cultural conditions and considerations consistently affected Coalition initiatives and significantly


7
  Excerpt from State Department Fact Sheet, “U.S. Relations with Afghanistan.” Bureau of South and Central
Asian Affairs. 19 June 2012. Web. 20 Aug 2012. <http://www.state.gov/r/pa/ei/bgn/5380.htm>.
8
   Chicago Summit Declaration on Afghanistan, Issued by the Heads of State and Government of Afghanistan and
Nations contributing to the NATO-led International Security Assistance Force (ISAF) May 21, 2012.
9
  Excerpt from State Department Fact Sheet, “July 7-9 Tokyo Conference on Afghanistan,”
http://www.state.gov/r/pa/prs/ps/2012/07/194681.htm, 8 July 2012. Web. 20 Aug 2012.



                                                        3
impeded progress in the development and effectiveness of the Afghan command and control
system.

The Western Approach to Command and Control
U.S. Joint Publication One (JP.1)                         Figure 2. ANA Mission Command
defines command and control as “the
exercise of authority and direction by
a properly designated commander
over assigned and attached forces to
accomplish the mission.”

For U.S. Army commanders, the term
mission command has replaced the
term command and control and
describes how properly designated
ground commanders, through formal
processes, convey their intent to plan,
prepare, and execute missions while
continually assessing the situation in
order to achieve mission
accomplishment.                                  Source: ANA Command and Control Doctrine


U.S. Army Field Manual 3-0 codified mission command doctrine, portions of which were
translated into the Dari language and used to develop the draft ANA document 1-3.6 Command
and Control Doctrine. As of May 2012, this command and control doctrine awaited field-testing
and final approval for use by the ANA for Corps level leaders. Figure 2 depicts the ANA
Mission Command concept found in the ANA C2 document.

Through their C2 systems, U.S. Army commanders also used the Military Decision Making
Process (MDMP) 10 to establish commander’s intent and allocate resources. The Afghan National
Army Training and Education Command (ANATEC) taught MDMP in formalized courses.
Lower level Afghan leaders, such as those attending the ANA Sergeants Major Academy, were
taught an abbreviated version of the MDMP – Troop Leading Procedures – that provided small
unit leaders a framework for planning and preparing for operations. Whether the ANSF would
fully accept and use these western processes as a subset of their C2 system was uncertain.

ANSF Command and Control System
As of May 2012, the ANSF had integrated and linked its C2 system with parts of the Coalition
command and control system. Figure 3 graphically depicts the interconnected national, regional,
provincial and district level command, control, coordination, and communications systems
among ISAF, Ministry of Defense (MoD), Ministry of Interior (MoI) and National Directorate of
Security (NDS). Solid lines from the strategic to tactical level depict direct command and


10
     Please see U.S. Army Field Manual 101-5, Military Decision Making Process, for more in-depth discussion.


                                                         4
control responsibilities within MoD, MoI, and NDS. The dashed lines indicate coordination
within the strategic, operational, and tactical levels of the ANSF.

The OCCs are not command and control nodes; however, they were designed to function as
important coordination and communication centers. The OCCs included representatives from
the MoD, MoI, and NDS in addition to liaison officers from the Afghan Uniformed Police
(AUP), Afghan Border Police (ABP), Afghan National Civil Order Police (ANCOP), AAF, and
Afghan National Army Special Operations Command (ANASOC). OCCs helped Corps
commanders and provincial leaders deconflict battle space and facilitate operations, particularly
important for the ANA and ANP, which lacked interoperable radio communications systems.

             Figure 3. ANSF Command, Control, and Communications Linkage




Source: International Security Assistance Force Joint Command

Orders or ciphers flowed through the National Military Command Center to lower level
commands. Each lower level of command had its own internal operations centers for
information flow vertically to the General Staff and the NMCC as well as horizontally to the
regional or provincial OCCs. The ANA Chief of the General Staff also routinely relayed
information and orders directly to lower level commanders via cell phone.

Of note, the Minister of Interior’s staff and Coalition advisors referred to the National Police
Command Center (NPCC) as a National Police Coordination Center, and did not view it as a
critical strategic level command and control node. The MoI senior staff and advisors that we
interviewed also expressed significant concern regarding the NPCC’s and OCC’s overall utility,

                                                     5
lack of effectiveness, and function. In particular, the overall structure of the National Police
Coordination Center and regional OCC’s did not align with the exisiting MoI and ANP structure.
The ANP Chiefs of Police were locally powerful and decentralized and unlike the ANA regional
corps commanders, did not have a strong regional presence. Therefore, advisors reported the
NPCC and regional OCC’s were perceived as redundant, duplicative, and unnecessary by some
members of the ANP.

ANA Command and Control System
In March 2011, the Ministry of Defense Organizations and Functions Manual defined the ANA
Command and Control system, as directed by Presidential Decree 5001.

                      Figure 4. ANA Command and Control Structure




Source: MoD Organizations and Functions Manual


Figure 4 shows the ANA Command and Control Structure taken from the MoD Organizations
and Functions Manual, Annex A, the Afghan National Army Command and Control directive,
which states:
              “Ultimate command authority for the ANA is held by the President of
              Afghanistan. Command authority may be devolved to the Minister of Defense,
              the Chief of the General Staff, the Ground Forces Commander, the AAF
              Commander, and Afghanistan’s Special Operations Command – all levels of

                                                  6
              command are ultimately responsible to the President of Afghanistan for the
              ANA, AAF, and ASOC as appropriate. The First Deputy and all staff in the
              Ministry of Defense and General Staff, Recruiting, Training, Logistic and
              Medical Commands have no command authority outside their own mission
              specific chain of command, unless specifically directed by either the President of
              Afghanistan, Minister of Defense or Chief of the General Staff.”

Summary of ANA C2
A deeply ingrained Afghan culture and history, a western command and control structure, and
written guidance influenced the development and execution of the ANA C2 system. The
codified ANA C2 guidance may not reflect current Afghan command practice, nor be sustainable
for security operations in the future. The Afghans employ more abbreviated and simpler
methods than prescribed in western planning and command concepts. In any event, the systems
adopted by the ANA will require discipline, transparency, and clear organizational constructs in
order to establish them in support of an enduring and professional security force. The merging
of western C2 doctrine and constructs, combined with Afghan cultural considerations, the heavy
reliance on Coalition enablers, and the challenging threat environment make the development of
the ANA C2 system a daunting task. As such, the effort to develop the ANA C2 system by U.S.
and Coalition advisors has been marginally successful. The ANA is capable of rudimentary
command and control functionality; however, long-term success in this area will require
continued Coalition and U.S. assistance and training.




                                                      7
Page Intentionally Blank
     Part I
Notable Progress




       9
Page Intentionally Blank
Operation NAWEED, Afghan-led Operational Planning Effort
(SY1391)
In early January 2012, the ANSF in coordination with International Security Assistance Force
Joint Command began implementing Operation NAWEED in order to provide an updated
strategy and operational plan to direct joint operations. Its goals are to secure the population and
borders, create an environment for the expansion of good governance, enable Afghan-wide
commerce and cultural expression, and provide the opportunity for peace and stability in
Afghanistan.

Operation NAWEED was especially significant in that it was the first operational plan developed
by the Afghan National Security Forces. The plan integrates and synchronizes ANSF and ISAF
security force operations in a single campaign plan, detailing a concept of operations for each
geographic region. It was a joint Afghan planning effort, including input by the MoI, MoD,
NDS, and intended to guide combined team operations from March 2012 through March 2013.
In addition, the non-security ministeries also provided their own annexes to the SY 1391 plan,
enabling a whole-of-government approach.

Coalition Development of an Afghan Special Operations
Force Capability
Special mission units have been highly valued in the counterinsurgency fight. Afghan
Commandos and Afghan Special Forces have emerged as the premier MoD forces along with
MoI Crisis Response Units. Coalition train, equip, and advising efforts have improved their
combat proficiency and unit morale, and established them as aggressive and versatile combat-
ready forces with strong leadership. The Coalition was undertaking an aggressive program to
field more Afghan SOF units with organic aviation capability to enhance Afghan capacity and
responsiveness to in extremis security situations.

ANSF Effects-Based Metrics
The IJC Director of ANSF Development had developed an initiative to utilize detailed metrics to
measure the outcomes of ANSF performance. These new indicators, including measures of
support from the local community, public opinion, and levels of economic activity, if adopted,
would provide necessary additional insight into ANSF effectiveness in leading the counter-
insurgency effort. This would constitute a natural shift in emphasis from measuring how well
the Coalition fielded the ANSF to how effectively the ANSF were currently performing. Using
this approach would enable ANSF effectiveness measurements based upon trend lines by unit,
commander, area, and type of operation.

Operation SELAB
Operation SELAB was a one-time push of multiple classes of supply to the new Regional
Logistics Centers (RLSCs) over a 15-day period in early 2012. Operation SELAB increased the




                                                 11
Authorized Stockage List (ASL) inventories at each RLSC prior to the spring 2012 fighting
season and assisted in implementing the MoD 14 process 11 for requesting supplies. NTM-A
identified 118 critical line items out of the RLSCs’ 3,475 authorized inventory levels.
Distribution efforts then focused on these key supplies. After Operation SELAB, advisors
estimated the increased ASL significantly improved and streamlined requisition fills by the
RLSCs. The results of Operation SELAB were encouraging, as previously unissued equipment
and parts at depots began making their way into operational units.

ANSF Performance during April 2012 Kabul and Provincial
Terrorist Attacks
In April 2012, faced with well-coordinated and complex insurgent attacks conducted in both
Kabul and outlying provinces, the ANSF had an opportunity and need to employ both ANA and
Afghan National Police forces in response. The ANP, which had the security lead, utilized an
internationally recognized “Gold – Silver – Bronze” police response plan, in coordination with
the ANA, during Kabul attacks. Of note, these attacks occurred when several key MoD leaders
(Minister of Defense and Chief of the General Staff) were out of the country, therefore affording
their deputies the opportunity to direct operations. The ANSF successfully repelled the assault
through timely coordination and communications between the police and the army. The effort
was described by the Coalition as not perfect, but effective.




11
   MoD 14 is an ANA form used within logistics channels that functions as a requisition mechanism for parts and
supplies. This request process is a “pull” system from lower level organizations to logistics depots based upon unit
need and tashkil authorizations. Historical data from multiple requests (parts and supplies) can potentially identify
recurring demand items and consumption levels by type unit or organization. Accurate records of demand items can
facilitate future operational requirements and budgeting considerations.


                                                         12
              Part II
Command, Control, and Coordination
 Challenges and Areas of Concern




                13
Page Intentionally Blank
Observation 1: Evolving Organizational
Constructs Complicated the Development of the
Afghan National Army Command and Control
System
The U.S. and Coalition planners had not sufficiently synchronized the projected completion dates
of the evolving organizational initiatives in order to achieve optimal ANA command and control
unity of effort in line with Afghan security forces assumption of the lead security role by the
summer of 2013.

Still evolving and newly emerging ANA organizational structures presented challenges to the
development of the ANA Command and Control System. Specifically, the ANA organizations
undergoing concurrent establishment or transition in 2012 included:
   •   the establishment of Ground Forces Command (GFC),
   •   the National Military Command Center (NMCC) transition to a National Military
       Operations Center,
   •   the changing role of the Air Command and Control Center (ACCC).
   •   the expanded mission set of the ANA Special Operations Command (ANASOC), and

Additionally, the 40 regional and provincial Operations Coordination Centers were in different
stages of maturity with varying levels of capability to interact with provincial, regional, and
national counterparts.

The inability of command and control and coordination nodes to develop internal standard
operating procedures, exercise staff training scenarios, and coordinate actual operations due to
changing ANA roles and responsibilities complicated the development of the overall ANA
Command and Control system and could delay overall ANA progress and its transition to lead
roles.

Applicable Criteria (See Appendix C, Numbers 1, 12b, 12c, and 15, for more detail)
   •   Afghan Ministry of Defense, “Air Command and Control Doctrine,” (Dari-English), May
       2011
   •   Decree 5001, Ministry of Defense “Organization and Functions Manual,” March 29,
       2011
          o Chapter 32 “Ground Forces Command”
          o Chapter 33, “Afghan National Army Special Operations Command”
   •   ISAF Operations Plan (OPLAN) 38302 (Revision 6) ISAF Operations in Afghanistan,
       October 31, 2011




                                                15
Discussion
Evolving and emerging Afghan National Security Forces organizational constructs complicated
the development of the Afghan National Army Command and Control System. At the time of
our visit, the ANA had recently established or was in the process of changing four key command,
control, and coordination organizations with major mission responsibilities that affected the
entire C2 system.

Organizations undergoing change included the ANA Ground Forces Command, the National
Military Command Center, the Afghan National Army Special Operations Command, and the Air
Command and Control Center. The National Military Command Center planned to change its
title to the National Military Operations Center, the Afghan National Army Special Operations
Command expanded its mission profiles, and the ACCC changed its command and control role
in ANA aviation. Additionally, 40 regional and provincial Operations Coordination Centers were
at different stages of maturity with varying levels of ability to interact with their provincial,
regional, and national level command centers.

To meet the May 2012 Chicago NATO Summit goal for the ANSF to assume the lead security
role across Afghanistan by mid-2013, the ANA and their advisors need to urgently finalize the
C2 architecture in order to train, advise, and evaluate ANA C2 proficiency, sufficiency, and
ability to sustain these constructs after 2014.

Ground Forces Command
IJC advisors to the Ground Forces Command developed a series of staff exercises to train and
evaluate the Ground Force Commander and staff responses to various security and non-security
incidents. However, as our assessment team departed in early May 2012, the delineation of roles
and responsibilities between the General Staff and the GFC Headquarters was not complete. In
late June 2012, IJC advisors reported to the DoD IG that an Operational Planning Team (OPT)
recently completed the initial effort to define roles and responsibilities, however, implementation
and validation of the new roles and missions continued.

Ground Forces Command planned to be fully operationally capable (FOC) by August 2012, with
plans to assume ANA operational level command and control responsibilities by October 2012.
These C2 authorities included GFC direct coordination with ISAF Joint Command and with the
commanders of the ANA Regional Corps in order to conduct and synchronize operational
missions and respond to security incidents. Both milestones linked to staff exercises in order to
validate GFC readiness to function as an operational level staff. However, until a clear
delineation of the roles and responsibilities of the General Staff and the Ground Forces
Command is defined and established, validation of the GFC Commander’s ability to exercise
effective command and control of ANA forces will be problematic.

National Military Command Center
The current National Military Command Center planned to change its name and mission to
become a National Military Operations Center. Advisors reported the name change would be
synchronized with the standup of Ground Forces Command; however, they could not clearly



                                                16
specify the changes planned within the National Military Command Center in order for it to act as
an operations center, nor the date planned to execute this change.

                         Figure 5. National Military Command Center




                Source: DoD IG

Air Command and Control Center
Advisors to the Air Command and Control Center reported the Air Command and Control
doctrine approved in May 2011 was under revision. The advisors indicated the ACCC might
develop into an operations center instead of a command and control node due to the centralized
control, prioritization, and retasking of air assets at the General Staff level. However, advisors
did not provide a date when changes would occur to the ACCC, nor describe planned ACCC
interactions with the other emerging C2 organizations.

Although Air Liaison Officer positions were established on each of the OCC tashkils, many
positions had not been filled. Often ANA officers filled the positions due to shortages of Afghan
Air Force representatives. The ACCC advisor at NTM-A was actively assessing the Air Liaison
Officer situation during our visit in order to determine shortfalls and standardize liaison training.
Even if the Air Liaison Officer positions were filled at desired levels, the uncertainty associated
with the ACCC mission regarding operational command and control of Afghan Air Force air
assets would impact their training.

Operations Coordination Centers
Regional and provincial Operations Coordination Centers were at different stages of maturity
with varying levels of ability to interact with their provincial, regional, and national level
command centers. Operations Coordination Centers had not fully developed although their
original implementation began in 2007.




                                                 17
The Coalition emphasized its convictions regarding the importance of developing effective
Operations Coordination Centers as integral to ANSF capability to assume the lead for security
operations in 2013.

Detailed IJC CUAT reports from advisors captured the current state of OCC development and
organizational capability. OCC evaluations depended upon a partnered unit affiliation or a
dedicated OCC Security Force Advisor Team (SFAT) of 9-15 personnel. IJC tracked the status
of development and readiness trends every quarter across multiple functional areas.

The Commanders Unit Assessment Tool assigned Readiness Development Levels based upon
objective and subjective information, including personnel strength, equipment holdings,
maintenance of equipment, and training. The readiness development level (RDL) certification
process for OCCs was a slow process in development to go from RDL 5 (unit is established) to
RDL 1 (unit is independent with Advisors). Coalition partners changed due to unit rotations, and
SFAT personnel shortages affected the IJC validation of the OCCs. Additionally, some OCC
locations occasionally lacked partner units and trainers.

In addition, the ANA, ANP, and NDS were unable to fulfill their tashkil resource requirements,
which resulted in repeated OCC institutional shortfalls, particularly with regard to personnel and
logistics support. New requirements created by ANA organizational restructuring challenged
ANSF stakeholder efforts to have their requests included in changes to equipment or personnel
authorizations during the annual tashkil requirements process. The ANSF institutional
bureaucracy has necessitated significant Coalition involvement and assistance to facilitate timely
updating of tashkil requirements.

The DoD IG team also reviewed the OCC Certification Activation Criteria that IJC and the ANA
established for Transition Tranche 2. This assessment tool identified seven categories as key
indicators for certification and effectiveness. Each category had a maximum point value:
[Personnel (54), Operations (45), Information (27), Logistics (33), Communications (24),
Training (15), and Command and Leadership (27)], based upon an agreed Coalition and Afghan
Key Leader consensus. Periodic IJC assessments from partnered units or Security Force
Assistance Teams could be used as a gauge for further Coalition assistance to improve the
functional performance and operations of the OCCs. As of May 2012, nearly half of the 40
OCCs were certified.

OCCs are essential to support the resiliency of the ANSF Command and Control System. How
the OCC certification program addresses existing OCC shortfalls in any of the seven categories
will be essential to support the resiliency of the ANSF Command and Control System.

ANA Special Operations Command
In March 2012, the DoD-sponsored Afghanistan Strategic Program Review that considers
important new initiatives and program enablers indicated a significant focus on increasing the
ANA Special Operations Command force structure and organization. The solar year 1391 tashkil




                                                18
authorized establishment of the ANASOC headquarters and two new Special Operations
brigades, each consisting of five Special Operations kandaks. The brigades mixed ANA
Commandos (ANACDO) 12 and ANA Special Forces (ANASF) 13 with each brigade allocated a
general support kandak. These support kandaks will provide the ANASOC Commander
improved ability to ensure tactical and operational level logistics support to ANASOC forces.
The DoD sponsored Afghanistan Resources Oversight Council that addresses major ANSF
requirements and funding sources identified and approved new air and ground mobility assets in
September 2012 to provide additional mobility to ANASOC forces to meet mission requirements.

On July 16, 2012, the ANA activated the Special Operations Command headquarters followed
by the Special Mission Wing (SMW) two days later. The Special Mission Wing will consist of
four new squadrons of seven Mi-17s and four fixed wing aircraft. In addition, three MoI aviation
support detachments will provide nationwide mobility coverage. The previous MoI Air
Interdiction Unit became a part of ANASOC in order to conduct both counter narcotics and
COIN missions under one command. As these capabilities emerge, so will the need for their
respective command and control systems to mature.

The ANASOC force structure adjustments, combined with Coalition SOF headquarters
consolidation into a single headquarters, introduced significant change and growth into the
development of a critical Afghan security force asset. Although these ANASOC force structure
changes bring an essential capability, integration with the other evolving command and control
systems will require close monitoring by advisors and stakeholders in order to synchronize
effects, achieve unity of effort, and maximize senior Afghan leader C2 training.

Conclusion
The May 2012 NATO conference in Chicago set 2013 as the goal for ANA to assume the lead for
security operations and prepare for transition in 2014. Not all the organizational C2 restructuring
underway appeared sufficiently synchronized to achieve ANSF C2 unity of effort by the summer
of 2013. The magnitude of ANA C2 organizational change presented a significant challenge to
the maturation of its various C2 nodes. The organizational changes hindered development of
standard operating procedures, staff training, and the ability to conduct independent security
operations. The lack of synchronization could delay overall ANA progress in assumption of the
security lead role from U.S. and Coalition forces.




12
     ANA Special Forces specialize in foreign internal defense missions and COIN operations.
13
     ANA Commandos specialize in direct action, similar to the U.S. Army Rangers


                                                         19
Recommendations, Management Comments, and Our
Response
1. Commander, International Security Assistance Force Joint Command, in coordination with
Commander, NATO Training Mission-Afghanistan, support the Afghan Minister of Defense
and General Staff in the stabilization and finalization of efforts to bolster and develop existing
Afghan National Army command and control organizational structures in order for these
organizations to be properly mentored and validated for their full operational capability in
support of the transition to ANA lead in security operations before summer of 2013.


Management Comments
Responding for International Security Assistance Force Joint Command, the IJC Director of
Future Plans and the Inspector General partially concurred with Recommendation 1, requesting
that we adjust the wording of the recommendation for “accuracy and correctness.”

Our Response
Although partially concurring with the draft recommendation, the comments received on behalf
of Commander, International Security Assistance Force Joint Command are responsive. The
command suggested the wording that now appears in the final Recommendation 1, and which
recognizes that IJC supports (emphasis added) the MoD and General Staff in stabilizing and
finalizing efforts to develop existing (emphasis added) ANA command and control structures.
We have revised our draft recommendation to reflect the changes suggested. In responding to
the final report, we request that IJC provide to us a summarization of specific actions the
command has taken to support the MoD and GS in stabilizing and finalizing ANA C2
organizational structures, to include the NMCC, GFC, the ACCC, ANASOC, and the OCCs.




                                                 20
Observation 2: Ground Forces Command
Responsibilities were Unclear
An unclear division of responsibility existed between the ANA General Staff and the emerging
ANA Ground Forces Command causing significant organizational and operational challenges
during GFC establishment.

General Staff reluctance to identify and divest authorities and responsibilities to the GFC
inhibited the timely development of the Ground Forces Command. Afghan and Coalition
officers also reported widespread, lukewarm support among senior level MoD and General Staff
officers for the establishment of the GFC. Operationally, some Afghan Corps commanders and
staff members considered the GFC unnecessary and a redundant headquarters.

The General Staff’s prolonged reluctance to identify and divest defined roles and missions to
Ground Forces Command hindered formation of the GFC, affected GFC staff functional start-up
training, and subsequently delayed the development of the overall ANA command and control
system.

Applicable Criteria (See Appendix C, Numbers 6, 11, 12a, 12b, 13, and 17 for more
detail)
   • Chief of General Staff Order # 358, “About the Regional Corps and 111 Capital Division
        Command and Control,” dated 04/11/1390, January 24, 2012
   • Decree 467 Establishing GFC, June 2010, Implementation Order 2011
   • Decree 5001, Ministry of Defense “Organization and Functions Manual,” March 29, 2011
           o Chapter 23, “Mission of the Office of General Staff Chief of Operations GSG3”
           o Chapter 32, “Ground Forces Command”
   • Draft Directive of the Authorities and Responsibilities of Ground Forces Command and
        Chief of General Staff of the MoD, undated
   • Ministerial Development Program for ANA Ground Forces Command, January 3, 2011

Discussion
The GFC faced significant organizational and operational challenges during its implementation.
An IJC-sponsored Operational Planning Team had the mission to assist the MoD and GS to
define and differentiate GS and GFC staff responsibilities. The OPT completed its work in mid-
May 2012, and resulted in a cipher approved and issued by the Chief of the General Staff
delineating the responsibilities between the GS and GFC. Detailed staff work continued within
the GFC G5 Directorate (Plans and Policy) to define readiness criteria and the process to transfer
specific responsibilities from the GS to GFC.

Organizational and Operational Challenges
Although Presidential Decree 467 established the GFC in June 2010, latent controversies
surrounding the duties of the General Staff and GFC remained. Functional separation of staff
responsibilities has proven to be a formidable task. The GS had to accept the loss of some


                                               21
responsibilities and the GFC had to accept and begin staff training to assume new duties. Both
actions were critical in delineating and assuming the responsibilities of major C2 nodes.

According to IJC, another OPT has been formed to resolve these on-going challenges. Whether
the OPT will be effective is yet to be determined. Without a clear understanding of roles,
missions, and functions, a confusing, duplicative, and dysfunctional ANSF command and control
arrangement may result.

Limited Support
Advisors and ANA officials reported mixed levels of organizational support for the
establishment of the GFC. The GFC was a late addition to the overall ANA command structure
and, by organizational size and influence, the least understood. Views on the necessity, utility,
and future role of the GFC varied widely among Afghan corps headquarters, GS staff principals,
and some Coalition officers. Several ANA leaders and Coalition officers noted that the GFC was
an IJC construct and initiative, not an Afghan-created requirement, and that it added an
unnecessary layer to the ANA chain of command.

While IJC dedicated significant mentoring and training assistance to the stand-up of the GFC and
headquarters staff, our assessment team observed limited support from within the General Staff
for GFC development and significant doubt at all ANA levels regarding its long-term existence
after 2014. The ANA did not display a unified conviction that the GFC would be a viable
addition to the existing ANSF command and control structure.

Development of GFC
GFC senior officers planned for the GFC to be fully operational capable by August 2012, and
assume ANA operational level command and control responsibilities by October 2012. The IJC
effort to develop the GFC headquarters appeared on track. IJC’s training strategy from July
2011 to August 2012 focused on essential tasks such as individual training, functional staff
development, periodic exercises geared to the timely publishing of orders, synchronization of
internal GFC staff functions, and refinement of NMCC reporting requirements. IJC validation
tasks accompanied command post exercise staff training events based upon specific exercise
scenarios.

The stated mission for GFC is to synchronize activities between the GS, the four operational
Corps commands, Capital Division, and other assigned units. The GFC is intended to unify the
essential ANA tasks to counter terrorism, insurgency, and any other threat to Afghan security.
However, the GFC will have limited influence on logistics matters and must coordinate with the
national level logistics command, the Army Support Command, to ensure supplies meet field
operation needs. GFC development reflected a conditions-based process that required Afghan
support, multi-national cooperation, and key leader engagements by U.S. and other Coalition
general officers to meet the desired end state.

GFC Headquarters included an Interagency Coordination Center (ICC), equivalent to an OCC
operating at a higher command level, that would play a prominent role in determining GFC
requirements, information sharing within the interagency, and operational de-confliction. The
GFC Commander’s role in orchestrating both the GFC Joint Operations Center (JOC) and the

                                               22
Interagency Coordination Center may duplicate responsibilities resident in the NMCC, MoD,
and General Staff. The plan to have a civilian director in charge of the ICC introduced the
notion of emerging civilian influence on operational matters. The role of the ICC as a
collaborative asset was unclear at this stage in GFC development.

Future Milestones
IJC conducts periodic command post exercises to validate specific GFC staff function
competencies based upon task lists. The first validation milestone began with an internal staff
validation exercise for FOC preparation in late September; the second milestone began with the
GFC preparations to assume ANA command and control in October. Although the GFC
advisors had not planned for the corps to participate in the final GFC exercises, including corps
participation would be vital to validate communications connectivity and confirm understanding
of command relationships. IJC involvement in GFC staff training and mentoring was uncertain
beyond October 2012.

Conclusion
The lack of clearly differentiated functional responsibilities between the General Staff and GFC
and the evolving delays in prescribing solutions has impeded completing the ANA C2
architectural structure. Operational staffs must have time to adjust to new lines of authority,
establish relations with new points of contact, and initiate routine communications for specific
staff actions. Undertaking comprehensive staff training exercises to practice procedures,
educate, and train staffs in new responsibilities will also be essential and requires sufficient time.

Recommendations. Management Comments, and Our
Response
2.a. Commander International Security Assistance Force Joint Command, in coordination with
NATO Training Mission - Afghanistan, the Ministry of Defense, and General Staff, support
and assist the Operational Planning Teams and new MoD leadership to quickly resolve the
relevant issues regarding delineation of roles, missions, and functions directed by the Chief of
the General Staff’s cipher to ensure previously published GFC activation milestones can be
achieved.

2.b. Commander International Security Assistance Force Joint Command, in coordination with
NATO Training Mission- Afghanistan, assist the Ministry of Defense to incorporate the new
delineated General Staff and Ground Forces Command roles in the Ministry of Defense
Organization and Functions Manual.

2.c. Commander International Security Assistance Force Joint Command, in coordination with
NATO Training Mission - Afghanistan, the Ministry of Defense, and the Ground Forces
Command, schedule a capstone command and control validation exercise with the General
Staff, ANA Corps, 111th Capital Division, and other relevant stakeholders that re-enforces
understanding and responsibilities across functional staff areas.




                                                  23
Management Comments
Responding for International Security Assistance Force Joint Command, the IJC Director of
Future Plans and the Inspector General concurred with Recommendations 2.a., 2.b., and 2.c.,
without any additional comments specific to the recommendations.

Our Response
IJC comments are partially responsive. While concurring with each, IJC did not specify what
actions it planned or had completed toward implementing the recommendations. We request that
in response to the final report, IJC provide us a detailed narrative of actions planned or
completed with projected dates or timelines to accomplish the elements of each recommendation.
Response should cover resolution of relevant staff responsibilities between the GS and GFC
(2.a.); delineation of these new roles and functions in an updated Afghan Organizations and
Functions Manual (2.b.); and status of any command and control staff training exercises to
validate Afghan understanding of the delineated responsibilities between the GS and GFC among
all stakeholders, including the Corps commands, Logistics Command, and other logistics C2
nodes (2.c.).




                                              24
Observation 3: The Afghan Air Force
Headquarters Air Command and Control Center
Did Not Function as an Effective Command and
Control (C2) Node.
The ACCC did not function as a command and control center and was a redundant level of
coordination.
This occurred because the General Staff G3 Deputy for Air Affairs, Air Plans office assumed the
mission to prioritize air mission requests (AMRs) 14 and sent them to the ACCC for AAF mission
tasking and monitoring. However, changes and updates to in-progress missions routinely were
sent by senior officers directly to Afghan Air Wings for action, bypassing the ACCC and
removing the ACCC from command and control authority over AAF missions.
Ground and airborne communication limitations further complicated the ability of the ACCC to
conduct C2. As a result, the ACCC could not consistently contact aircrews in order to relay
official changes or track air mission progress.
The inability of the ACCC to execute C2 contributed to its lack of visibility over air operations at
the Afghan Air Wings, and increased the risk of potential misuse of aircraft, thereby hampering
official AAF mission accomplishment.

Applicable Criteria (See Appendix C, Numbers 1, 12a, and 12d for more detail).
     •   Afghan Ministry of Defense, “Air Command and Control Doctrine,” (Dari-English), May
         2011
     •   Decree 5001, Ministry of Defense “Organizations and Functions Manual,” March 29,
         2011
            o Chapter 23, “Mission of the Office of General Staff Chief of Operations GSG3”
            o Chapter 34, “Mission of the Afghan Air Force”

Discussion
In July 2011, a DoD IG team assessing the U.S. and Coalition efforts to develop the AAF, 15
noted deficiencies regarding command, control, and stewardship of AAF resources. Air advisors
had established the Afghan Air Force Professionalization Program and collected monthly metrics
regarding adherence to established command and control policy, as well as to the proper
submission of air mission requests. The AAF Air Command and Control doctrine also


14
   Air mission requests are forms used to request, approve, and prioritize the use of AAF assets.
15
   DoD IG SPO Report, “Assessment of U.S and Coalition Efforts to Train, Equip, and Field the Afghan Air Force,”
Project No. D2011-D00SPO-0234.000.



                                                      25
emphasized that “the proper routing of air mission requests is central to disciplined command
and control.”

From July 2011 to March 2012, after several key leader engagements, the advisors reported they
had observed improvement in compliance with proper command and control policy and
scheduling procedures. For example, in March 2012, the NATO Air Training Command –
Afghanistan (NATC-A) Operations Officer reported the monthly results for these rotary and fixed
wing missions. The report showed the percentage of missions conducted using the required AMR
process increasing from 14 percent in August 2011, to 73 percent in March 2012. However, the
AMRs that were both on time and completed properly stood at 40 percent. Further, the report
showed the AAF completed proper mission planning in accordance with Afghan command and
control policies for 54 percent of the missions flown in March 2012. The AAF command and
control capability had demonstrated improvement, but still needed significant work.

Although U.S. and Coalition key leader engagements had resulted in improvement of
stewardship of AAF assets by MoD and ANA senior leadership, during this assessment we noted
that the ACCC did not function as an effective command and control node. We physically
observed computers, radios, and direct phone lines to the NMCC. However, the ACCC
exercised only limited coordination and no command authority over AAF air mission tasking.
Several senior Afghan officials expressed the belief that each AAF wing should have its own
operations center in order to report directly to the GS-G3 Deputy for Air Affairs at the NMCC.
This action would, in effect, bypass the ACCC and relegate it to a mere coordination center
instead of a command and control center.

Air C2 Organization and Doctrine
Although the President of Afghanistan retained ultimate command and control of the ANA, the
Minister of Defense and the Chief of the General Staff were responsible for day-to-day
operational C2, communicating commander’s intent and implementing orders. Senior MoD and
GS leaders’ orders flowed through the General Staff G3 and the NMCC.

According to the MoD Organizations and Functions Manual, the Afghan Air Force had
responsibility for final tasking, execution of orders, and assumption of command and control of
the Afghan Air Forces as an operational level command. Air Command and Control doctrine
directed the use of the ACCC for this C2 function.

However, advisors reported that in April 2012, the Air Command and Control doctrine signed in
May 2011 was in revision, and the ACCC role may be changed to become an air operation or
coordination center, rather than an air command and control center. Specifics regarding the
details of these changes, as well as how the new Ground Forces Command would affect the
ANA Corps interaction with the ACCC, was yet to be defined.

In practice, the regional corps commanders sent their AMRs directly to the GS-G3 Deputy for
Air Affairs, Air Plans office, instead of to the ACCC. Procedurally, this practice was in conflict
with the May 2011 Air Command and Control Center Doctrine that stated, “regional air support
requests are routed to the ACCC from Air Wings and detachments”. Advisors acknowledged
some AAF C2 processes did not comply with this guidance, and the AAF would update those

                                                26
processes in the ACCC doctrine revision in an effort to reflect a more Afghan culturally
acceptable and sustainable construct.

Tension existed over the use of the same AAF assets between ANSF officials who wanted to
used them at the national strategic level and those that wanted to use them at the operational
level. For example, corps commanders viewed air assets in their region as intended solely for
corps support; however, they were not necessarily aware of higher priority national air mission
requests. As a result, the General Staff Deputy for Air Affairs, instead of the ACCC, retained
command and control along with AMR approval authority in order to exercise centralized air
planning. However, overall AAF lack of C2 capability and lack of transparency of air operations
remained a challenge.

            Figure 6. Afghan Air Force Air Movement Request (AMR) Process




Source: NATO Air Training Command – Afghanistan

The Minister of Defense, the Chief of the General Staff, the GS-G3 Director of Operations, and
the GS-G3 Deputy for Air Affairs were the only personnel authorized to approve air mission
requests. The GS-G3 Deputy for Air Affairs Air Plans office collected both the national level
AMRs and regional requests through the AAF liaison officers. GS-G3 Air Plans then sent the
approved and prioritized AMRs to the ACCC for distribution, final tasking, and execution by the
AAF Air Wings and detachments. The ACCC consolidated the fixed wing and rotary wing AAF
schedule and held daily and weekly scheduling meetings. However, the ACCC did not routinely
receive changes and updates to in-progress missions. Instead, the individual Wing Operations
Centers (WOCs) directly received changes, tracked mission execution, and provided post
mission situation reports (SITREP) to the ACCC.
                                                  27
Limited Air and Ground Communications
Ground and airborne communication limitations further complicated command and control. The
mountainous terrain limited the type of radios the ACCC could use to communicate with
airborne aircraft, as did austere and remote landing locations with limited ground communication
options.

A high frequency radio (HF) was the primary method for the ACCC to communicate with
airborne aircraft. The HF radio could reach the furthest distance, but was also limited to an
unsecure single frequency used by all aircrews. Air advisors reported difficulty communicating
with the ACCC in English due to limited air controller language proficiency; however, Afghan
crews could communicate in Dari. Ultra High Frequency (UHF) and Very High Frequency
(VHF) radios also had very limited range due to line of sight restrictions imposed by
mountainous terrain.

Advisors and the AAF were working together on improving their communication system. The
ACCC reported that their goal was to be able to connect with all AAF units via e-mail, fax, and
radio. As of May 2012, the ACCC had established e-mail contact with the Kandahar Air Wing.
However, this contact had not been established with the Shindand Air Wing and other maturing
air detachments at various locations.

The ACCC was unable to communicate with aircrews on the ground via a landline at many
locations. In addition, although the AAF had a program for government cell phones, this
program was not available to tactical level aircrews. Advisors created a work-around for Wing
Operations Centers to call aircrews as personal cell phone charges were not incurred in this
situation. However, the AAF expected Afghan aircrews to use their personal cell phones, at their
own expense, to initiate contact to the ACCC or WOC. This situation provided little incentive
for the Afghans to make phone contact.

As a result, the ACCC could not easily communicate with aircrews in order to execute official
changes, nor track missions via flight following 16 to ascertain their current location. In order to
obtain current mission information, the ACCC needed to contact the Afghan Air Wings
individually for updates and details.
                   Figure 7. Air Command and Control Center (Kabul)




     Source: DoD IG


16
    The task of maintaining contact with specified aircraft for the purpose of determining en route progress and/or
flight termination.


                                                         28
Kandahar Air Wing
Kandahar Air Wing had recently established its WOC in the AAF Wing Commander’s
Headquarters. This move was a step forward in the development of their Command and Control
system. Previously, the WOC was located in another building within the Air Wing compound
away from AAF leadership. The AAF presented visual evidence of computers and radios in the
new WOC, along with a manual ledger air mission tracking system (see Figure 12). Advisors
reported that the Afghans, a week prior to our visit, had established positive radio contact with an
airborne aircraft from their new operations center. Although the wing operations center was in a
nascent stage of development, it showed improvement toward achievement of C2 for Kandahar
AAF leadership.
The Kandahar WOC had limited interaction with the ACCC and mission changes routinely came
directly to the Air Wing instead of through the ACCC. However, the WOC coordinated with the
Regional Operations Coordination Center (OCC-R) at Kandahar regarding availability of AAF
aircraft and mission status. The assessment team confirmed the presence of an aircraft status
board during its visit to the Kandahar OCCR.

Kandahar Air Wing also demonstrated a rudimentary, but emerging capability to conduct flight
following of their aircraft. The Afghan National Tracking System (ANTS), a commercially
available GPS-based solution originally designed for use by the ANA, was in the early stages of
implementation by the AAF. Of note, the ACCC had also requested this capability in order to
track national level missions, but as of May 2012, did not possess the ANTS equipment.
                       Figure 8. Kandahar Air Wing Operations
                                       Center




                     Source: DoD IG


Conclusion
The ANA had shifted prioritization of both national and regional level missions along with the
majority of C2 functions away from the ACCC and to the General Staff G3 Deputy for Air
Affairs office in the NMCC. Although General Staff Air Plans sent the AMRs to the ACCC for
mission tasking and monitoring, advisors reported that changes and updates to in-progress
missions went directly to the Air Wings and bypassed the ACCC.
Ground and airborne communication limitations further complicated effective C2. Although
radio, telephones, and computers were present in the ACCC, there appeared to be limited use of
them to effect coordination and ACCC personnel exercised no command authority. Aircrews
could not be consistently contacted to execute official mission changes, nor be tracked real time
via flight following to ascertain their current position.

                                                29
As a result, the ACCC was a rudimentary coordination or operations center instead of a
command and control center and, therefore, appeared to be a redundant level of coordination.
According to U.S. and Coalition air advisors, the Afghan centralized prioritization and control of
air missions at the General Staff Deputy for Air Affairs made consolidation of WOC inputs at the
NMCC a natural solution, particularly until the AAF was further along in its development. The
inability of the ACCC to execute C2 consistently contributed to the lack of transparency
regarding air operations at the Air Wings and increased the risk of potential misuse of aircraft,
thereby hampering official AAF mission accomplishment.

Recommendations, Management Comments, and Our
Response
3.a. Commander, NATO Air Training Command – Afghanistan reevaluate utility of the Air
Command and Control Center and either close it or rescope its function to serve as an air
operations and coordination center only; consider streamlining operations and resources to
have all air movements approved and tracked by General Staff Air Plans within the National
Military Control Center.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support non-concurred with
Recommendation 3.a., stating that while the ACCC had experienced a reduced level of
performance, a re-emphasis by mentors had made significant organizational improvements.
NTM-A/CSTC-A was not in favor of closing the ACCC, declaring it an important C2 node.
Specifically, they noted:
               “The ACCC is an essential command and control (C2) element integral to the
               success of the growing and maturing Afghan Air Force (AAF). Further, the
               ACCC is key to the efficient and effective daily management of the AAF's air
               resources both now and as the force evolves to full capability in the coming
               years. Closing the ACCC would hinder the ability of the AAF Commander and
               headquarters staff to maintain adequate oversight during planning, execution,
               and post mission phases of national and regionally tasked air movement requests
               (AMR). The ACCC is an important part of the greater Afghan National Security
               Force (ANSF) air-ground coordination construct.”

Our Response
NTM-A/CSTC-A comments are partially responsive. According to the MoD Organizations and
Functions Manual, the AAF had responsibility for final tasking, execution of orders, and
assumption of command and control of the AAF as an operational level command. Air
Command and Control doctrine directed the use of the ACCC for this C2 function. Yet, at the
time of our assessment, the ACCC did not have operational command and control authority over
AAF assets. The management comments from NTM-A/CSTC-A do not clearly indicate how the
ACCC is acting with command and control authority over all air operations within the AAF, or
when that authority will be implemented. Until that time the ACCC appears to be nothing more
than a redundant air operations and coordination center without clear authority to direct and task
missions. In response to the final report, we request that NTM-A/CSTC-A describe how the
ACCC exercises “command” over AAF assets for operational planning, execution, and control;

                                                     30
or specify when it is anticipated that the ACCC will gain command and control authority over
AAF mission execution. In describing this, please define what distinguishes the ACCC from
typical Air Tactical Operations Centers.

3.b. Commander, NATO Training Mission - Afghanistan in coordination with Commander,
NATO Air Training Command – Afghanistan advise the Vice Chief of the General Staff –Air
and Afghan Air Force Headquarters staff to revise the Air Command and Control Center
doctrine in order to clarify its role and its interaction with other command, control, and
coordination nodes.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation as written, and offered an over-arching explanation of evolving improvements.

NTM-A stated that:
              “…despite the adoption of a new C2 doctrine document in May 2011, lack of
              coalition advising activities significantly contributed to a general
              misunderstanding, inconsistent application, and varied interpretations of the
              nascent Afghan Air C2 Doctrine. Great strides have been made to reverse these
              trends with increased emphasis on the use and exercise of C2 authority by the
              ACCC, as well as, continued and frequent education for the Afghans from their
              advisor counterparts.”

              However, the AAF must have the opportunity to implement the Air C2 doctrine
              as written over a reasonable period of time before considering a revision. In
              support of this effort, NATC-A advisors have been and continue to 1) educate
              key senior leaders on the approved Air C2 doctrine, 2) develop the products and
              C2 nodes to facilitate full implementation of the approved C2 process, 3)
              evaluate progress, and 4) make recommendations for future Air C2 doctrine
              revision based on measured results. Among these efforts is a combined Afghan-
              Coalition ACCC Mobile Training Team to provide a complete and standardized
              interpretation of the approved Air C2 doctrine throughout the AAF. Similarly, a
              campaign to educate senior leaders at the MoD, AAF HQ, Air Wing, and
              regional levels began in Oct 2012.”

Our Response
NTM-A/CSTC-A comments are partially responsive. We acknowledge that NTM-A/CSTC-A is
aggressively acting to improve the advisory capacity to the AAF, and specifically, for the ACCC.
We agree that recommendations for future Air C2 doctrine revision should be based on measured
results. We request that in response to this report, NTM-A/CSTC-A report progress made in
clarifying the role and interaction of the ACCC with respect to other Afghan Air Force command
and control nodes, and how this interaction and authority has been incorporated into the ACCC
doctrine.




                                                    31
3.c. Commander, NATO Air Training Command - Afghanistan explore options to improve
command and control communications with Afghan Air Force aircrews, to include use of
government cell phones, and provide reliable mission flight following of Afghan Air Force
aircraft.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation as written, without any additional comments specific to the recommendation as
to how or when they would explore the options to improve communications with air crews or
develop a flight following capability.

Our Response
The NTM-A/CSTC-A comment is partially responsive. We request that in response to this
report, NTM-A/CSTC-A provide the details of how and when the command will assist the
Afghan Air Force to develop options for improving real time communications with aircrews
during operational missions and develop operational flight following capability.




                                              32
Observation 4: ANA Commanders’ Inability to
Remove Officers for Cause Negatively Impacts
Effectiveness of Command
Senior Commanders within the ANA perceived that they were unable to remove officers
assigned to them for misconduct, negligence, or loss of confidence in their ability to execute
their assigned duties.

Several factors contributed to this perception. First, the Inherent Law for the Afghan National
Army Officers and NCOs (ILON) and other internal ANA directives on assignment or removal
of officers and NCOs were vague and contradictory. Second, there was no formally prescribed
and universally understood methodology governing the process by which Commanders could
relieve subordinates. Finally, due to the political influence exercised by central government,
Corps Commanders, the Chief of the General Staff, and even the Minister of Defense were
restricted in their authority to remove ANA officers, and general officers in particular.

Failure to grant Corps Commanders and the Chief of General Staff the clear and unambiguous
authority to remove subordinate officers for cause while providing an equitable, properly
administered process by which this action can be accomplished, negatively affects ANA
command authority and mission effectiveness.

Applicable Criteria (See Appendix C, Numbers 4, 5, 12, and 18 for more detail).
   •   Afghan National Army Inherent Law for Officers and NCOs, published in the Ministry of
       Justice Official Gazette, July 2010
   •   Afghan National Army Regulation 030: “Officer Assignments, Transfers, and Details”
   •   Decree 5001, Ministry of Defense “Organization and Functions Manual,” March 29,
       2011
   •   Ministry of Defense Order No. 0517, “Maintaining Ethnic Balance in the ANA,” March
       18, 2010

Discussion
Senior commanders within the Afghan National Army almost uniformly shared the opinion that
limitations imposed on their authority to assign personnel, and perhaps more critically, to remove
or suspend incompetent or incapable officers, impaired their capability to command. In one case
reported to our team, a Corps Commander (Major General) had been unable to remove a
disruptive Chief of Staff (Brigadier General) for over a year, and the ensuing dysfunctional
command relationship had a palpably negative effect on the morale of the corps.

Balancing Ethnicities within the ANA
In June 2006, the Minister of Defense issued MoD Decree 062, which established ethnic
personnel goals for the first time within the ANA. The Minister issued the ethnic targets, in
large part, due to an unusually large representation of Tajiks among the ANA senior officers, and
a disproportionately smaller representation among the Hazaras, Uzbeks, and other smaller tribal

                                                33
entities. 17 In March 2010 the MoD issued Decree 0517 that restated the same ethnic goals as in
the 2006 Decree.

The senior officers interviewed understood the need for ethnically balanced personnel to make
the ANA more representative of the Afghan population and to remove the potential for
corruption. They also noted, however, that the policy could potentially result in some officers
being assigned to positions for which they were unqualified or incapable, merely to attain the
balance. Regardless, by having a program that actively sought to achieve ethnic balance,
commanders were restricted in their ability to remove some unqualified officers. To
institutionalize an equitable program, formal investigative mechanisms needed to be emplaced to
ensure that removed officers were afforded legal protections. We could not determine that such
a formal mechanism existed in the ANA.

Confusing Policies
The ANA had no formally prescribed and universally understood process whereby commanders
could relieve subordinates for cause. Instead, parliamentary and MoD leaders had issued
confusing and contradictory laws and policies that often did not address the needs of
commanders to remove non-performing officers. Two crucial documents addressing assignment
or reassignment of officers were the Inherent Law of Officers and NCOs, and the MoD Officer
Assignment and Reassignment Policy.

Inherent Law of Officers and NCOs (ILON)
The Inherent Law for ANA Officers and NCOs (ILON) was enacted to manage the
“employment, transfer, promotion, award, punishment, separation, resignation, and retirement”
of ANA officers and NCOs. 18 However, the ILON does not provide specific authority to remove
officers; it does prescribe the approval authorities for promotion, assignment, and transfer of
officers.

                    Table 1. ILON Authorities for Assignment and Promotion
                           RANK                            FINAL APPROVAL
                   General Officers                  President of Afghanistan
                   MAJ, LTC, COL                     Minister of Defense
                   2LT, 1LT, CPT                     Chief of General Staff
                   NCO                               Chief of General Staff
                  Source: ANA Inherent Law for Officers and NCOs

Commenting on the ILON-a senior General Staff officer stated that in Afghanistan there existed
a fear of misusing power, and that ethnic and relational preferences could result in some


17
   MoD Decree 062 provided for the following ethnic goals within the ANA: Pashtun – 44%, Tajik – 25%, Hazara –
10%, Uzbek – 8%, Other – 13%. A NTM-A brief in March 2012depicted actual officer percentages as follows:
Pashtun – 42.9%, Tajik – 40.1%, Hazara: 7.3%, Uzbek: 4.2%, Others: 5.6%.
18
   Islamic republic of Afghanistan, Ministry of Justice, Official Gazette (Extraordinary Issue), “Inherent Law for
Afghan National Army Officers and NCOs (ILON).”


                                                       34
commanders removing officers, replacing them with their own tribal kinsmen or favorites, and
creating a dangerous concentration of like-minded officers with military power. He stated that
the ILON was passed to prevent such an occurrence. Nevertheless, he, like many other Afghan
officers, opined that the ILON negatively affected the “command” authority of commanders and
the efficiency of the ANA. He stated that the authority and responsibility to command should
ultimately reside in the Chief of the General Staff (CoGS), and that the CoGS must have the
authority to remove incompetent and incapable officers to improve the efficiency and
effectiveness of the ANA.

Of note, all ANA officers who addressed the inability of commanders to relieve or suspend
subordinate officers for cause referred to the limitation imposed by the ILON as the authoritative
document. However as previously noted, the ILON contained no article that addressed the
involuntary removal of officers.

Officer Assignment and Reassignment Policy / Regulation 030
Three Officers/Year. Paragraph 5-2 of the MoD Officer Assignment and Reassignment Policy
did specify that commanders (at all levels) had the right to remove a maximum of three officers
per calendar year without higher level approval. The commander needed only to forward the
appropriate documentation to the General Staff G1 (Personnel) for processing and reassignment
orders for the removed officer. The regulation did not specify what happened to the relieved
officer while awaiting reassignment.

More than Three Officers. In addition, this regulation also contained an article authorizing a
commander to remove more than three officers during the calendar year, but to exceed three the
commander had to first forward the request for removal of the officer to the CoGS for final
approval and replacement actions through the respective Corps Commander. This differed from
the removal policy for the first three personnel in that this article specified Chain of Command
action and final approval by the CoGS.

Reasons for Removal. The MoD Officer Assignment and Reassignment Policy regulation
provided that personnel may be removed for two reasons:
   •   Removal without Prejudice – when a commander recognizes an officer is not suited for
       the position. Removal under this clause is not negative.
   •   Removal for Cause – when a commander loses confidence in the officer’s ability due to
       misconduct, poor judgment, inability to complete assigned duties, or other similar
       reasons.

In actual practice, the CoGS and most commanders interviewed did not believe they were
empowered to remove officers/commanders. Most officers and commanders we interviewed
perceived that authority for removal resided with those authorities specified in the promotion,
assignment, and transfer sections of the ILON – CoGS for officers in the rank of captain and
below; the Minister of Defense for colonels and below; and the President of Afghanistan for all
General Officers.




                                                35
The policies and procedures associated with removal of officers were sufficiently vague and
conflicted with the ILON with respect to authority and process.

External Review Process Needed for Relieved Officers
If there were clear command authority to remove officers for cause, it would also be equally
important to ensure removed officer received due process. An impartial investigation process
was lacking, however, to ensure fairness and to protect officers from any capricious and
unwarranted removal actions instigated by their commanders. A formal, unbiased investigative
process to examine all factors involved in an officer’s removal would provide transparency to the
process and protect both the removed officer and the commander from questionable practices.

Conclusion
To be effective, commanders must have the authority to remove incapable or incompetent
officers for cause. Within the ANA, this authority was seriously lacking or misunderstood
because policies and regulations regarding removal of officers from their position were unclear
and a formal investigation process was lacking. To enable commanders the authority to remove
incapable officers with impartiality, the policies and regulations would have to be clarified and a
formal methodology for investigating the factors accompanying the removal be established.
These precepts would serve to support the “command” aspect of command and control by
supporting and elevating the authority of the commander while preserving fairness in the system.

Recommendations, Management Comments, and Our
Response
4.a. Commander, International Security Assistance Force Joint Command engage the Minister
of Defense to encourage an amendment to the Inherent Law of Officers and NCOs providing
specific language granting Chief of General Staff and Corps Commanders clear authority to
remove and reassign officers. An effective system of military justice and administrative process
should be developed to allow removal of officers and soldiers. A system of administrative law
should be instituted to support such decision making and ensure natural justice is served.


Management Comments
Responding for International Security Assistance Force Joint Command, the IJC Director of
Future Plans and the Inspector General partially concurred with Recommendation 4.a.,
requesting that we adjust the wording of the recommendation for “correctness and fidelity.”
They suggested the wording which now appears in the final Recommendation 4.a., removing the
phrase ‘for cause due to incompetence or corruption,’ which had been contained in our draft
recommendation. They further requested that we add the following two sentences to the wording
of the final recommendation:

               “An effective system of military justice and administrative process should be
               developed to allow removal of officers and soldiers. A system of administrative
               law should be instituted to support such decision making and ensure natural
               justice is served.”



                                                     36
Our Response
Although partially concurring with the draft recommendation, the comments received on behalf
of Commander, International Security Assistance Force Joint Command are responsive. We
have revised our draft recommendation to reflect the changes suggested. In response to the final
report, we request that IJC provide a summary of specific actions taken to encourage changes to
the Inherent Law of Officers and NCOs, and actions taken to develop an equitable system of
military justice and administrative process that support the removal or reassignment of officers
by the Chief of the General Staff and by Corps Commanders.

4.b. Commander, NATO Training Mission - Afghanistan, in coordination with Commander,
International Security Assistance Force Joint Command, coordinate with the Minister of Defense
and the Chief of the General Staff to ensure that the MoD Officer Assignment and Reassignment
Policy regarding existing authority and process for the removal of officers is clearly understood
and monitor implementation within the MoD/ANA.

Management Response
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation. Additionally he stated that the Assistant Minister of Defense for Personnel and
Education was conducting Staff Assistant Visits (SAV) throughout the ANA from November
through December 2012. He stated that emphasis was being placed on the clarification and
implementation process of the current policies to include the recently approved Officer and NCO
Assignment Policy as directed by Presidential Order 45 of June 21, 2012. Upon completion of
the SAV, the teams were to generate an after action report (AAR) that would be provided to the
Minister of Defense on the results of the SAV.

Our Response
Management comments are responsive. In response to the final report, we request a copy of the
Presidential Order 45 issued on June 21, 2012, and a summary of the results of the the Staff
Assistance Visit After Action Reports.

4.c. Commander, NATO Training Mission – Afghanistan assist the ANA in developing and
formalizing an official review process to accompany the removal authority existing or implied by
statute or regulation.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation. In addition, the command reported that a panel of senior ANA General
Officers had been reviewing the records of over 600 officers below Corps. The command
reported that an analysis would be made to determine the future of substandard performing
officers.




                                               37
Our Response
Management comments are partially responsive. The information provided is instructive and
reflects continued progress; however, it does not delineate the establishment of an officially
sanctioned, formal review process that accompanies any removal authority existing or implied by
statute or regulation.

In response to the final report, we request that NTM-A/CSTC-A describe in detail the official
review process that has been established to accompany the removal of officers or soldiers, that
has been enacted, or that is implied by statute or regulation. State whether the panel of senior
officers convened to review the 600 records was a one-time event or whether it was to be a
recurring event established by regulation. We also request that you provide us a copy of the
regulation or directive that guides the review of the removal of officers.




                                                38
Observation 5: Organizational Structure
Impeded Operation Coordination Center
Leadership from Achieving Unity of Effort
OCC leadership did not have sufficient authority to manage personnel staffing, to regulate
support requirements, or to control the internal procedures of their respective Operation
Coordination Centers.

This occurred because the OCCs developed from three distinct tashkil documents, each
supported respectively by resources from the ANA, ANP, and NDS. Rather than an integrated
effort, the separate tashkils created division of labor, blurred responsibility, and stove-piped the
OCC workplace, making them divided, disjointed, and inefficient organizations.

Decrees and ciphers had not clarified the day-to-day OCC leadership’s authority to resolve
internal logistics issues, manage personnel resources, or optimize coordination with Afghan
battle-space owners to achieve unity of effort. Personality and institutional influences affected
internal operations and degraded the effective internal management of the OCC structures.
ANA, ANP, and NDS support was fragmented and insufficient to achieve organizational
effectiveness.

Without sufficient authority, OCC leaders will not be able to manage effectively their
organization, and this could adversely affect their ability to improve coordination; promote
intelligence sharing and battlefield information fusion; and optimize coordination support of
ANSF operations, and thus effectiveness.

Applicable Criteria (See Appendix C, Numbers 7, 14, 16, and 19 for more detail).
   •   Combined Directive 001/2011 between the International Security Assistance Force and
       the Afghanistan National Security Forces for the Conduct of Security Operations in
       Transitioning Areas (Classified)
   •   ISAF FRAGO 164-2009, Accelerating the Establishment of Operations Coordination
       Centres-Regional (OCC-R) And Operations Coordination Centres -Provincial (OCC-P)
       within Afghanistan, April 30, 2009 (Classified)
   •   Joint Directive Implementing Order 3501, September 16, 2007, and Presidential Decree
       1730, March 2, 2008
   •   Operations Coordination Center National Standard Operating Procedures (OCC NSOP),
       Version 2.2 Draft as of January 16, 2012

Discussion
OCC challenges at the regional and provincial level mirrored many of the challenges associated
with Afghan ministerial development. Internal tensions and friction with higher and adjacent
headquarters, logistics shortfalls, and lack of trained personnel permeated the OCC structures.
Specifically, the OCC Deputy Commander for Coordination lacked the authority to integrate
separate institutional efforts to organize and manage assigned resources for optimum efficiency.

                                                 39
ANA Corps Commanders were dual hatted as OCC-R commanders. The OCC-R commander
delegated most of his OCC-R duties to the OCC-R director, an ANA Brigadier General, as
depicted in Figure 13. The OCC-R director’s job title, on the tashkil, is OCC-R Deputy
Commander for Coordination. In practice, the individual OCC ANA, ANP, and NDS deputy
commanders conducted day- to-day supervision for their respective personnel – the ANA Deputy
managed only the ANA element, the ANP Deputy managed the ANP element, and the NDS
Deputy managed the NDS element. The ANSF had not codified the ANA Director for
Coordination’s responsibility clearly via cipher or decree. Therefore, the NDS and ANP deputy
commanders were not compelled to coordinate their activities to achieve the intended unity of
effort in terms of staffing, training, or equipment. Without a specific decree, cipher authority, or
a joint staffing tashkil, the Deputy Commander for Coordination had inherent organizational
challenges to resolve OCC resource shortfalls.

The lack of unity of command and lack of sufficient resources within the OCCs inhibited their
effectiveness and efficiency to facilitate interaction, coordination, and synchronization of
security activities between the ANA, ANP, and NDS. Based on our interviews with Coalition
advisors and with the Afghan leaders at each of the OCCs we visited, the security ministries
apparently placed little emphasis on resourcing the tashkils that established the Table of
Organization and Equipment for OCC structures. Common deficiencies included equipment,
infrastructure, staffing shortfalls and further training requirements of assigned personnel.

       Figure 9. Typical Personnel Structure of an OCC-R Showing Notional Tashkil
                          Contributions from Each Security Pillar




           Source: IJC



                                                40
Assignment ofqualified personnel to the OCCs competed with other requirements for quality
human capital across the ANSF. In addition, standardized OCC staff training did not exist.
Advisors planned an OCC Foundation Course of Instruction to begin in the fall of 2012 in order
to address the challenge of untrained personnel at the Operation Coordination Centers.

Conclusion
The OCC Deputy Commander for Coordination was not empowered to facilitate unity of effort
within the OCCs. Resourcing three different tashkils, with varying levels of support from the
ANA, ANP, and NDS, was a significant challenge. Without an order, policy, or decree that
provides clear OCC resource instructions to MoD, MoI, and NDS and commensurate authority
for the OCC Deputy Commander, OCC leadership will continue to operate with limited
resources and capabilities, and this will adversely influence staffing, intelligence sharing,
information fusion, and required support coordination to ANSF operations.

Recommendations, Management Comments, and Our
Response
5. Commander, International Security Assistance Force Joint Command, in coordination with
NATO Training Mission – Afghanistan, and leadership within the ANA, ANP, and NDS,
develop a joint staffing and equipment resourcing tashkil decree, a Memorandum of
Agreement, or other appropriate mechanism to delegate clear authority and daily
administrative control of each OCC-P and OCC-R to the respective OCC Deputy Commander
for Coordination.


Management Comments
Responding for International Security Assistance Force, the IJC Director of Future Plans and the
Inspector General concurred with Recommendation, without any additional comments specific to
the recommendations.

Our Response
IJC comments are partially responsive. While concurring, IJC did not specify what actions it
planned or had completed toward implementing the recommendation. We are interested in
determining what specific action is being taken to resolve the leadership challenges found inside
the OCC-R/P organizations. Three security pillars occupy personnel positions and provide
equipment in the Operation Coordination Centers throughout Afghanistan. While concurring
that a single tashkil or other mechanism might resolve the leadership challenges, we have no
indication of the course of action IJC is pursuing to generate greater efficiencies in the OCC-R/P
structures. We request that in response to the final report, IJC provide us a detailed narrative of
actions planned or completed with projected dates or timelines to accomplish the elements of the
recommendation.




                                                41
Page Intentionally Blank
Observation 6: Complexity of Automated
Systems Exceeds ANSF Capacity to Operate and
Sustain
The complexity of computer automation and information technology provided by the Coalition
has exceeded ANSF capacity to assimilate, integrate, and sustain.

This occurred because the Coalition lacked a comprehensive, coordinated, systematic, and
integrated plan for providing computer automation and information technology to the ANSF that
properly recognized the limitations inherent in Afghanistan (e.g., low literacy rate, inadequate
electrical generation, and distribution, and lack of information networking capacity). The pool of
qualified personnel to operate and maintain the array of networks, systems, and programs within
the ANSF command, control, and communications systems was insufficient. The Coalition has
incrementally introduced non-integrated, information technology systems within the ANSF that
are relatively complex given the educational/literacy rate of the population and ANA to support.
The personnel training and retention issues of system operators and maintainers had not been
sufficiently resolved.

As a result, automation systems currently fielded were considerably underutilized and did not
optimize command, control, and communications. ANA Commanders too frequently resorted to
using less complicated, more customary, and less secure systems as a primary means to exercise
command and control.

Applicable Criteria (See Appendix C, Numbers 3, 12, and 21 for more detail).
   •   Afghan National Army (ANA) 1-6 “Communications,” May 2009
   •   Decree 5001, Ministry of Defense “Organization and Functions Manual,” March 29,
       2011
   •   United States Army Doctrine Publication 6.0 “Mission Command,” May 17, 2012

Discussion
The complexity of the new data processing and communication equipment and systems
seemingly had surpassed ANA current capacity to not only absorb, but also sustain them.

Computer automation and information technology are critical to command and control and
coordination systems in today’s modern armed forces. The advancement in sharing critical
information quickly and issuing timely orders and direction drives armed forces in combat.
Sophisticated systems and advanced technology are the cornerstones of a fully developed, well-
equipped, highly trained, and motivated force with the ability to conduct all manner of complex
operations whether defensive or offensive, in their own territory or deployed, independently or
with partners. The Afghan National Army is not yet sufficiently advanced to be able to utilize
modern and highly technologically advanced systems to support their developing force. They
are just beginning to integrate simple yet important concepts such as sustainment of training,
education, force management, and logistics operations. In the effort to assist them in

                                               43
development of their combat capability, Coalition forces have provided complex, sophisticated,
and expensive hardware and software systems that cannot be operated or sustained by the ANA.

The ANA was inadequately prepared to deploy, operate, or sustain the extensive
moderncommunication technology systems provided to support its emergent force structure and
C2 systems. The ANA has been developing its training, education, and logistics systems, but, as
        Figure 10. ANSF Net Operational Concept               yet, these systems are
                                                              insufficient to meet the support
                                                              and sustainment requirements of
                                                              ANA. As transition to ANSF
                                                              lead in security operations gains
                                                              momentum, a significant
                                                              percentage of Afghan senior
                                                              leaders, General Staff principals,
                                                              members of the Afghan training
                                                              community, and Coalition
                                                              advisors reported they had
                                                              reservations regarding ANA
                                                              capability to fully operate and
                                                              sustain these systems without
                                                              continued, extensive Coalition
                                                              assistance.

                                                               In the effort to improve overall
Source: NTM-A                                                  management of the growth of
                                                               the ANSF and to improve
communications connectivity among and between the various elements of the ANSF throughout
Afghanistan, the U.S. and Coalition forces had deployed multiple relatively complex systems,
which had achieved varying degrees of effectiveness.
Some of these include:

       •   The Afghan Human Resources Management Information System (AHRIMS) [G-1
           Personnel]

       •   The National Information Management System (NIMS) [G-2 Intelligence]

       •   The CORE Information Management System (CORE IMS) [G-4 National Depot
           Logistics down to Forward Support Depots]

       •   WEB Manage – an equipment maintenance database for tactical units designed to
           integrate maintenance, inventory, and material requisitions. Specifically, its purpose
           is to manage and integrate warehouse, procurement, and logistics operations
           countrywide in a centralized system

       •   Web Based Electronic Pay System (WEPS) [G-8 Comptroller]



                                               44
       •   Strategic and tactical communications systems: DasNet, ANSF Net, Afghan Wireless
           Communication Company (Microwave), Afghan Telecom Optical Fiber Cable (for
           USB High Speed wireless internet and broadband connections)


                      Figure 11. Afghanistan Fiber Optic Installation




      Source: NTM-A

Obstacles
Low Literacy Rate
A low ANSF literacy rate compounds these factors. Despite progress made from focused
Coalition and Afghan literacy training programs, widespread illiteracy was still prevalent
throughout Afghanistan and within the ANSF. This inhibited rapid training and education of
personnel needed in both numbers and competency to install, operate, repair, and sustain data
and communications equipment and systems provided by Coalition forces.

Training and Retention
The actual pool of technically trained personnel within the ANA was limited and reportedly
unable to operate and maintain effectively the systems and networks intended to enable ANA
establishment of command and control systems. Radios with encryption, computers with
advanced software, electrical circuits with generators requiring maintenance and fuel, all
required on-site technicians or maintenance contracts for support operations and spare parts, all
with network engineers to keep the whole enterprise operational. It is the intent of the Coalition
and the GIRoA that the ANA have a well-qualified, educated and technically proficient cadre of
personnel to deploy, install, operate, and maintain its information technology networks in
                                                45
support of the expanding ANSF. To meet these requirements, additional training and education
facilities to increase personnel throughput were needed. To provide this training, modern, up-to-
date instruction and sufficient equipment was necessary to ensure that each student was qualified
once training is completed.

A further complication noted was that once personnel became adequately trained and
experienced in servicing and maintaining complex systems, they had options to leave the military
to seek more profitable civilian employment. The skills needed to operate, maintain, and service
computer and communication systems are in great demand in the rapidly growing private
industry within Afghanistan. While the pay of an IT professional in the Afghan marketplace
may be somewhat lower than in other countries, it nonetheless exceeded the pay received as a
member of the military. There was no special incentive pay offered for skilled computer and
communications technicians to retain their services.

Equipment Distribution
Coalition procurement and programs providing computer automation and information
technology overwhelmed ANA absorption capacity. Equipment intended for distribution to the
end user often sat for an extended period in warehouses, and deployment of hardware was
unevenly provided to units sometimes not yet capable of independent, unassisted computer-based
systems operations. Once equipment was distributed and put into operation, it was frequently
underutilized. Our team observed many instances of computers on the desks of key leaders at
the strategic and operational level that were rarely turned on. At one OCC, where
communications and coordination of activities was a key function, a “daily report” stated that
only 39 e-mails had been processed during the reporting period through the communications
center. This number appeared low based upon western knowledge of the current security threat,
operational tempo, and existing reporting nodes. The ANA can be expected to grow more
sophisticated with additional training, mentoring, and experience, but the current force structure
and its leadership retained a high preference for and reliance upon cell phone technology and
hard-copy paper reports.

Sustainability
Adapting to the different types of automated database software, in concert with varying types of
equipment such as computer systems, communications systems, and IT support systems
presented a significant burden on the ANA training and logistics systems. These systems were
continually being delivered by U.S. and Coalition Forces, at a monetary cost not imposed on the
Government of the Islamic Republic of Afghanistan. They require education, training,
operations, maintenance, and management capability so far not sufficiently achieved.

The cost to implement, operate, and maintain automated systems may be beyond the ANA, MoD
or Afghan government to sustainably support. There is a difficulty and cost to maintaining
systems with incompatible software, expensive support contracts, and with non-interoperable
communications systems. Another issue was the inability to distribute equipment throughout the
force using the inefficient logistics system, in addition to the Afghan tendency to retain
equipment in warehouses rather than to distribute equipment to units. These factors have
prevented implementation of sufficiently effective ANA integration of complex command and
control equipment.

                                               46
The computer systems (particularly software) were not compatible; software systems were stand-
alone; analog radio systems required electricity to operate (batteries needed charging); and items
as simple to Westerners such as scanners, copiers, printers, telephones, encryption devices, flat
screens display panels, monitors, routers, modems, cables, wiring, computers, and all associated
support requirements were not easily sustainable in Afghanistan. Electrical distribution was not
reliable; fuel distribution difficult; logistics distribution slow and more often than not, dangerous;
and the cost to support all of this exceeded the current capacity of the ANA, MoD, and GIRoA.

Conclusion
Several factors delayed ANA capability to use sophisticated C2 systems. The cost of
maintaining systems with incompatible software, expensive support contracts, and non-
interoperable communications systems will present ANA sustainment challenges; as will the
inability to distribute all of the equipment throughout the force due to a largely inoperable
logistics system.

The very high illiteracy rate in the ANA inhibits rapid training and education of a large number
of personnel that are needed to distribute and install, operate, maintain, repair, and sustain the C2
systems that are being delivered by Coalition forces, as does the inability to distribute all of the
equipment throughout the force due to a largely inoperable logistics system.

A substantial, well-trained cadre of personnel is needed to maintain and operate the encrypted
radios, the computers with advanced software, and the electrical supply systems. Printers,
scanners, and copiers all require either on site technicians or contracts to support, and skilled
networking engineers are required to keep the entire enterprise in operation.

The Coalition may have delivered too much computer automation and information technology
systems to the ANA too quickly and in any event, had not first developed a comprehensive plan
to integrate all component systems to be interoperable.

A plan for targeted fielding of equipment, education, training, and personnel retention is needed
to achieve an identified and desired endstate in relation to time, cost, and ANA capability.

Recommendations, Management Comments, and Our
Response
6. Commander, NATO Training Mission – Afghanistan coordinate with International Security
Force Assistance Joint Command and Afghan counterparts at Ministry of Defense, Ministry of
Interior, General Staff, Afghan National Army Corps/Zones and supporting commands, to
convene an Afghan-led and Coalition-supported Integrated Planning Team (IPT) to:
6.a. Determine and document the computer automation and information technology requirements
of the ANSF at the strategic, operational, and tactical levels.




                                                 47
Management Comments
Responding for NTM-A/CSTC-A, the Deputy Commanding General for Support (DCG-SPT)
concurred with the recommendation as written. To support the general sense of
Recommendation 6.a., the command noted that “Computer automation and information
technology requirements of the ANSF at the strategic, operational, and tactical levels are defined
in Appendix 2 to Annex CCC to Op Naweed 1391.”

Our Response
NTM-A/CSTC-A management comments are partially responsive. While noting that ANSF
automation and IT requirements had been detailed in the OP Naweed 1391 Plan, the DCG-SPT
did not mention how the requirements were determined. To ensure that advanced technology is
not being overwhelmingly and needlessly provided beyond the ANSF’s capability to maintain
and sustain, we request that NTM-A/CSTC-A, in response to the final report, describe the
methodology used to determine the computer automation and information technology
requirements of the ANSF and whether these requirements receive an ongoing review to confirm
their relevance.

6.b. Develop a holistic requirements, equipment, and sustainability strategy with a bridging
mechanism to synchronize present and emerging Afghan capacity to ANSF needs.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred as written. The
command offered the following discussion point: “The importance of a mature and capable
ANSF communications system is recognized by ISAF. NTM-A (CJ-6) is working with the
ANA, MoD and MoI, to develop a Command, Control and Communication (C3) Strategy for the
ANSF. The strategy aims to document current capabilities, identify the key capability gaps,
including methodologies for future expansion all of which takes into account and works within
the overall transition plan. Specific areas being addressed include: Network Operations,
Communication Parts, and Training.”

Our Response
NTM-A/CSTC-A management comments are responsive and directly address the
recommendation. A solid command, control, and communications (C3) plan will provide
sufficient and effective direction to the ANSF for supporting planned and unplanned operations.
In response to this final report, we request that NTM-A/CSTC-A provide us a copy of the C3
Strategy. If the C3 Strategy is still in development, provide the approximate date of completion.
DoD IG will keep this recommendation open until the C3 Strategy document is received and
verified.




                                                48
6.c. Develop the funding, personnel, and training strategy to establish an information technology
(IT) work force that will meet ANSF computer automation and information technology
requirements at the strategic, operational, and tactical levels, to include a concerted effort to
continue literacy training throughout the ANSF at a skill level required to support progress in
technical training.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation as written. The Command offered a detailed explanation of funding and
institutional capacity-building efforts that demonstrate a broad expanse of coalition engagement:

               “Funding for training is already established. ANA currently has three avenues
               with which to develop an IT workforce.
               1) Signal School - Currently established to provide signal training to soldiers,
               NCO, and officers. Areas of focus currently include network operations,
               information assurance, communications security (COMSEC), frequency
               management, satellite technology, and basic ISP/OSP.
               2) O&M Contract - As previously stated, the current O&M contract include
               hands on training of the operation, sustainment, and basic maintenance of the
               network at the network operations center (NOC) and Corps level.
               3) Commercial/University Training - ANA signal personnel are sent to
               commercial training to cover advanced topics (Microsoft admin, Cisco admin,
               etc). This is budgeted for and run by the GS-G6 Training Directorate.”

               “In addition to IT training, a similar mechanism is in place for radio training.
               1) Signal School - Teaches Level l (operator) maintenance and operation.
               2) Radio Maintenance Training Contract - Current radio maintenance training
               contract provides Level 2 radio maintenance training at the Central Workshop,
               Corps, Brigades, and soon to be at the Logistics School. Contract expires
               September 2013 but has an additional one year option.”

Our Response
NTM-A/CSTC-A management comments are responsive and indicate a substantial and proactive
effort to train ANSF technicians to maintain and sustain the IT and communications systems the
Coalition is providing for them. Please benchmark the progress achieved so far in these training
courses and plans for sustained and continued training beyond 2014.




                                                     49
Page Intentionally Blank
Observation 7: The ANA Logistics System Did
Not Sufficiently Support Command and Control
The logistics organizational command and support relationships between the General Staff, the
Logistics Command, the Army Support Command, and the Ground Forces Command were not
well defined, and therefore contradictory.
This occurred because the lines of command and coordination for logistical matters were poorly
defined and depicted, and in some cases, contradictory, within the MoD Organization and
Functions Manual (OFM), which is intended to establish clear roles and responsibilities for
major MoD and ANA organizational structures. Specifically, the OFM description of Army
Support Command lines of authority were unclear and confused command and support
relationships.
The lack of clearly defined lines of command and support created confusion in the ANA over
roles and responsibilities of logistics organizations and prevented effective mission execution.
The inability of the ANA logistics system to meet sustainment needs of operational commands
raised concerns about its ability to support ANA C2.

Applicable Criteria (See Appendix C, Numbers 8, 9, 10, 12e, and 12g for more detail).
   •   Decree 4.0, Ministry of Defense, Office of the Assistant Minister of Acquisition,
       Technology, and Logistics, “Supported And Supporting Unit Logistics Policy and
       Support Procedures,” January 2009
   •   Decree 4.1, Ministry of Defense, Office of the Assistant Minister of Acquisition,
       Technology, Logistics, “Transportation Management Policy and Procedures,” August
       2010
   •   Decree 4.2, Ministry of Defense, Office of the Assistant Minister of Acquisition,
       Technology, Logistics, “Materiel Accountability Policy and Procedures,” June 2009
   •   Decree 5001, Ministry of Defense “Organization and Functions Manual,” March 29,
       2011
          o Chapter 37 “Army Support Command,”
          o Annex B: “Support of the Afghan National Army (Logistics Concept of
              Support),”

Background
The Coalition’s decision to initially focus primarily on fielding combat units for COIN
operations resulted in lagging development of ANA combat support and combat service support
units responsible for the ANA logistics system. Emphasis shifted in recent years to developing
ANA logistics capabilities as operational units were fielded.

Over the course of 2011, the ANA with assistance from NTM-A/CSTC-A stood up a new
logistics structure headed by the Army Support Command (ASC) and incorporating six
subordinate Regional Logistics Support Commands (RLSCs). These RLSCs reported to the
ASC, providing a centralized management point for distribution of materiel. The last logistics
support center activated was Regional Logistics Support Command-North at Mazar-E-Sharif in
                                                51
July 2012. At that point, command and control of operational logistics functions shifted from the
Corps commanders to the RLSCs. This action centralized operational level logistics functions
above the Corps level for the purpose of enabling better C2 of ANA logistics inventories.

Poorly Defined ANA Logistics Structure
The OFM creates confusion regarding the lines of command and coordination for logistical
matters. Logistics authorities were poorly defined and depicted and, in some cases,
contradictory. Specifically, the OFM description of Army Support Command lines of authority
confused command and support relationships.
The ANA logistics organizational chart in the MoD Organization and Functions Manual depicted
the relationship between the ASC and the GS as a “supporting” role rather than a “command”
role. The supporting relationship between the GS and the ASC is reflected at Figure 16, found in
Annex B of the MoD Organization and Functions Manual.

                             Figure 12. ANA Logistics Structure




Source: IJC




                                               52
Figure 16 was inconsistent with the organization description provided in Chapter 37 of the OFM
for the ASC. Paragraph 37-1 stated that the ASC works “directly for the Chief of General Staff.”
This centralizes command authority above the operational level. As such, the GS had the
authority to direct the ASC to conduct cross-leveling logistical actions as needed in the RLSCs.
Cross-leveling was critical to ensure key spare parts were available to ANA units when needed
to support and maintain equipment necessary to conduct C2 operations.
The Army Support Command, however, was not included in the illustration in Figure 17 taken
from Annex B of the OFM. As a key logistics provider for the ANA, the ASC therefore should
be featured.

                         Figure 13. ANA Logistics Support Concept




   Source: NTM-A
Without clarification in the OFM GS and ANA logistics command and support relationships, the
ability of the logistics system to meet sustainment requirements of operational commands will be
impeded and raises concerns about its ability to support ANA C2. If the logistics system is
unable to move equipment and parts from the depots to the end-users efficiently, operational
commanders cannot depend on having the materiel necessary for C2 functions.
Once this lack of clarity is remedied, ANA training and education will be crucial to recognizing
the value afforded by the RLSCs in providing visibility of requirements for effective cross
leveling of supplies. Until the ANA develops an understanding of the structure, command lines

                                               53
of authority, and staff responsibilities, the logistics system will not mature. ANA understanding,
acceptance, and trust of this important enabler is therefore essential for ANA transition to lead
security and sustainment of their units.

Conclusion
Logistics is a key enabling force capability whose shortfalls directly affect the ability of the
ANA to conduct command and control. While the commands have made significant progress in
developing the ANA logistics system, logistics development will be hindered until the roles and
responsibilities of GS and ANA logistical organizational structures are clearly defined along with
their respective command, control, and support relationships. Appropriate training will be
needed to explain and reinforce the system’s effective functionality. Organizational lines with
no clearly defined reporting chain for the Army Support Command at the operational level were
a source of confusion for the ANA.

Recommendations, Management Comments, and Our
Response
7.a. Commander, NATO Training Mission – Afghanistan, in coordination with International
Security Assistance Force Joint Command and the Ministry of Defense, deconflict guidance
provided in the MoD Organization and Functions Manual, Chapter 37 and chapter 42a to clarify
the relationship, roles, and responsibilities of the Chief of General Staff and the Army Support
Command.

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support non-concurred with the
recommendation as written. In his response he stated that the lines of command were clearly
depicted in the OFM. However, he also stated that NTM-A/CSTC-A would work to make the
necessary adjustments to the OFM to ensure the command relationship between the Chief of the
General Staff and the Army Support Command was appropriately reflected.

Our Response
While NTM-A/ CSTC-A non-concurred with the recommendation, their comments are
responsive. In a separate follow-up with NTM-A, we determined that the lines of command and
control for the ASC did not exist in the OFM in Chapter 1, as they suggested, but instead
appeared in Chapter 37. NTM-A stated it was coordinating with the ANA to re-work the chart in
Chapter 37 of the OFM to show a solid command line between the CoGS and the ASC.
Accomplishing this change to the OFM fulfills the intent of our recommendation. In response to
the final report we request an extract of the updated chart in the revised edition of the OFM
reflecting our initial recommended change.




                                                54
7.b. Commander, NATO Training Mission – Afghanistan, in coordination with International
Security Assistance Force Joint Command and the Ministry of Defense, train ANA leadership on
logistics roles and responsibilities empowering the ASC to monitor and direct inventory
redistribution as needed to meet ANA priorities in accordance with the guidance provided in the
OFM Annex B: Support of the Afghan National Army (Logistics Concept of Support).

Management Comments
The NTM-A/CSTC-A Deputy Commanding General for Support concurred with the
recommendation as written. NTM-A provided positive comments about introducing the
Ministerial Advisory Group concept of logistics advisors and mentors to the ANSF logistics
structures at the strategic and operational level, to wit:

       “This line of effort remains ongoing with the establishment of logistic mentoring teams
       at both the strategic and operational level. Logistic mentors within the Ministerial
       Advisory Group (MAG) advise senior Ministers within the Ministry of Defense (MoD)
       on logistic C2 processes and assist them in refining the current model which is
       illustrated in Figure 16 [now Figure 13] within the report. These individuals provide the
       interface between the General Support staff and NTM-A. A mentoring and advisory
       group at Regional Support Command-Capital provides mentoring directly to
       Commander Logistics Command and his subordinate commands at the national level:
       the ANA National Depot (Depot Zero), the Central Movement Agency. DCOM-SPO
       provides mentoring at the Army Support Command.”

Our Response
NTM-A/CSTC-A management comments are partially responsive. We acknowledge the
importance of establishing a continual logistical mentoring presence at the Ministerial and the
operational level within the ANA and recognize this as an important step in development of
logistical expertise at that level. However, of primary concern is the ability to cross-level and
redistribute inventory when appropriate across RLSCs and, ultimately, between Corps. In
response to the final report, we request that NTM-A/CSTC-A advise how the ASC is developing
its capability to direct redistribution of materiels between the RLSCs to rebalance excesses and
address supply shortfalls among the ANA Corps, and if the ASC has been able to implement
such a redistribution process.




                                                  55
Page Intentionally Blank
Observation 8: Measuring the Air Support
Enabler Gap
IJC and AAF metrics tracking daily airlift, close air support, and medical evacuation missions
did not distinguish whether the ANSF or the Coalition provided air support.

Due to the low numbers and availability of AAF aircraft, ANSF requests for air support routinely
went directly to IJC and were not consistently routed through the Afghan Command and Control
structure, nor coordinated through the OCCs.

As a result, neither IJC nor the AAF had the data to determine with precision, the magnitude of
the enabling effort provided by Coalition aircraft in support of the ANA. Therefore, the
Coalition could not adequately plan for ANSF air support needs after 2014 or shape Afghan
expectations regarding what air support would be available.

Applicable Criteria            (See Appendix C, Numbers 1, 12d, and 20, for more detail).
   •   Afghan Ministry of Defense, “Air Command and Control Doctrine,” (Dari-English), May
       2011
   •   Decree 5001, Ministry of Defense “Organizations and Functions Manual,” Chapter 34,
       “Afghan Air Force,” March 29, 2011
   •   United States Air Forces Central Command, Afghanistan National Security Forces Air
       Power Requirements Review, February 28, 2010

Discussion
According to Coalition plans, the AAF will achieve maturity by 2016. However, the
development of the AAF will not replace existing Coalition air support capabilities up to that
time. Therefore, Afghan dependence on Coalition air assets will continue well beyond 2014. As
a result, NTM-A, IJC, and the AAF must have a shared understanding of the combined ANA
and Coalition air asset support capabilities in order to properly advise MoD and ANA leaders on
the command and control of their air assets. Understanding these requirements is important for
planning and budgeting for future Coalition air support.

Air Power Requirements Review
In December 2009, at the request of the Commander of the Combined Airpower Transition Force
(CAPTF) and the ANA Chief of the General Staff, the United States Air Forces Central
(USAFCENT) Commander chartered a review of ANSF airpower requirements. This review
ensured existing plans enabled the Government of the Islamic Republic of Afghanistan to
conduct a full range of aviation operations in support of their national security and military
strategy. USAFCENT released the ANSF Air Power Requirements Review in February 28,
2010, and included recommendations for Afghan air asset development, force structure, and
personnel requirements. In order of priority, the missions included presidential airlift,




                                               57
CASEVAC, 19 air mobility, training, close air support, and recce/airborne C2. This air power
requirements review set the stage for development of the AAF.

As of June 2012, the Afghan Air Force had nearly 6,200 personnel and an inventory of 93
aircraft. Force structure plans for 2016 included an AAF aircraft inventory of 152 aircraft and
8,000 personnel to support the Afghan National Army, along with support to Afghan civil
authorities. In addition, 22 of the 152 aircraft would be solely dedicated to Afghan pilot training
and not used for operational missions.

The need for the Ministry of Defense and Afghan National Army leaders to appropriately
prioritize and allocate scarce Afghan air assets to training and operational missions was an issue
already recognized by Coalition air advisors. Advisors had used key leader engagements to
balance operational requests and increase training mission priority. ANA leaders began to
realize that an AAF focus on operational missions, at the expense of training missions, would
delay the development of the AAF. However, the Coalition and AAF did not grasp the full
extent of Coalition enabling air support, as neither IJC nor the AAF had the data to determine
with precision the magnitude of the enabling effort.

Lack of Detailed Air Mission Measurement
Advisors reported that IJC air plans tracked cargo moved via air, along with the number of hours
flown, but did not have a consolidated picture of total types of missions flown by the Coalition and
AAF in support of ANA missions. Without a complete understanding of total air support
provided, IJC and the AAF were not able to capture the magnitude of this enabling effort. A lack
of precise air mission data may incorrectly influence Afghan Commanders’ planning assumptions
regarding the air support they will have for conducting future missions. Failure to capture the
precise level of air support may contribute to ANA senior leader misunderstanding of AAF
capability, particularly after 2014, when the ANA is in the lead. It was not clear what air support
the Coalition planned from 2014 to 2016. However, the strategic partnership agreement
announced by President Obama in May 2012 implied a promise for some level of continuing
support.

Some requests from the ANA for air support bypassed the Afghan C2 structure and OCCs and
went directly to IJC. Coalition advisors reported that Afghan air force liaison officers at a
Regional Operations Coordination Center routinely did not report for duty as they did not believe
their assistance was needed to coordinate air missions. Yet, when the ANA requested air support
through the above-mentioned OCC, the Coalition advisors coordinated directly with IJC without



19
    U.S. Army Field Manual 8-10-6 defines MEDEVAC (Medical Evacuation) as the timely, efficient movement and en route
care by medical personnel of the wounded, injured, and ill persons, from the battlefield and other locations to Military Treatment
Facilities (MTFs). The term MEDEVAC refers to both ground and air assets. CASEVAC (Casualty Evacuation) is defined as
movement of casualties to initial treatment facilities and movement of casualties to MTFs in the combat zone. It does not include
en route care by medical personnel and implies that nonmedical assets are being used to move casualties.




                                                               58
forwarding the requests through the AAF command and control system; therefore, the AAF did not
capture the unfilled ANA request for AAF air support. Another Regional Operations Coordination
Center visibly tracked daily aircraft missions and the maintenance status of nearby AAF assets.
There, the efforts to use the AAF command and control system and include the use of air assets in
the ANA common operating picture were evident. However, the AAF and IJC did not document
or measure the total air support effort devoted to ANA operations, and were therefore unable to
form a holistic picture of the air enabling effort.

ANA Dependence on Coalition Air Assets
IJC fixed wing and rotary wing advisors had recognized a heavy dependence on Coalition air
assets, particularly with regard to medical evacuation capability. As of May 2012, the advisors
began to emphasize the ANA use of ground medical movement where possible instead of relying
solely on Coalition airborne medical evacuation. Although this effort was in a nascent stage, it was
a step toward properly framing expectations and training ANA commanders to be proficient at
command and control of organic capabilities without relying upon coalition support first.

ANA dependence on coalition air assets will continue well beyond 2014. As a result, NTM-A,
IJC, and the AAF must have a shared understanding of air asset capabilities and AAF limitations
in order to properly advise ANA commanders on the use of air assets within their command and
control structures. A shared understanding of these capabilities aids in planning and budgeting
for future Coalition air support, and AAF growth. It is important to measure the gap between
AAF capabilities and coalition capabilities in order to form a comprehensive picture of the
combined air support provided.

Recommendations, Management Comments, and Our
Response
8.a. Commander, International Security Assistance Force Joint Command, in coordination with
NATO Training Mission – Afghanistan, NATO Air Training Command - Afghanistan and the
Afghan Air Force, conduct an evaluation of the frequency and type of air sorties flown in
support of ANSF versus Coalition missions.


Management Comments
Responding for International Security Assistance Force, the IJC Director of Future Plans and the
Inspector General concurred with recommendation, without any additional comments specific to
the recommendations.

Our Response
IJC comments are partially responsive. While concurring, IJC did not specify what actions it
planned or had completed toward implementing the recommendation. We request that, in
response to the final report, IJC report actions taken and results of their methodology used to
determine frequency and type of air sorties flown in support of ANSF vice Coalition missions.
Our primary focus is to ascertain that the Coalition accurately reflects and tracks missions or
flight hours dedicated to ANSF support.

                                               59
8.b. Commander, International Security Assistance Force Joint Command, in coordination with
NATO Training Mission – Afghanistan, NATO Air Training Command – Afghanistan, and the
Afghan Air Force, determine how ANSF air support needs will be met post-2014 based on the
results of this evaluation (in 8.a.) and establish an integrated and coordinated plan to meet these
needs.


Management Comments
The Commander, 9th Air and Space Expeditionary Task Force-Afghanistan (9th AETF-A),
responding for International Security Assistance Force concurred without additional comment to
the proposed recommendation.

Our Response
9th AETF-A comments are partially responsive. While agreeing with the recommendation, 9th
AETF did not provide any discussion on how the recommendation was to be implemented. In
response to this report, we request that IJC explain the actions to be taken to determine the ANSF
air support needs post-2014 and whether an integrated and coordinated plan has been or will be
developed to meet those needs. In addition, provide a copy of this plan or a projection as to
when it will be prepared. If no evaluation has been conducted to determine needs, we request
you provide us with whatever process was used to make the determination.


.




                                                 60
Summary Analysis and Finding: U.S. Efforts to
Develop an Effective ANA Command, Control,
and Coordination System Have Yielded a
Foundational C2 Capability
The extensive and ongoing U.S. and Coalition effort to develop security sector capacity in
Afghanistan had produced a marginally sufficient ANA Command and Control System that was
adequately resilient, coherent, and capable of transitioning to Afghan lead in plans and
operations by 2014.

The capacity for sustained continuity of an effective ANA C2 system, however, was fragile and
remained highly dependent upon required ISAF enablers and secondarily, upon external factors
that could diminish the effectiveness of foundational C2 capacity.

External factors that could impact C2 continued development and ultimate effectiveness include
challenges embedded in improving internal Afghan government capacity, overcoming recurring
border issues with Pakistan, minimizing corruption, increasing the reliance upon the Afghan
National Police for local security, and ensuring a means to pay police and soldiers.

In addition, ANA C2 system significantly relied on U.S. and Coalition enablers to help solidify
the C2 system.

Assessing ANA Command and Control
The DoD IG Assessment Team used an evaluative model that asked three fundamental questions
regarding general command and control system performance and considered those observations
in terms of execution with respect to the mnemonic methodology, DOTMLPF, used by U.S. and
western military force developers. DOTMLPF is described following a discussion of the the
three questions posed:

1. What is the national/strategic C2 structure down to the force level?

The introduction to this report discusses the existing ANSF C2 structure. Please refer to that
discussion and Figures 3 and 4 for a graphic depiction. Of note, the MoD Organizations and
Functions manual implemented and codified the ANA C2 structure as directed by the President
of Afghanistan.

2. What are the processes used, and the capabilities of those processes, to execute C2?

To execute strategic command and control, the President of Afghanistan issued decrees and
senior ANSF leaders used military ciphers to communicate strategic level commanders’ intent to
subordinate commands. These ciphers carried the weight of an authoritative command directive.
At the ANA operational level, Corps commanders and their staffs used written orders to execute
C2.

                                               61
The Coalition helped the ANA develop a telecommunications and email system to pass routine
information, all of which relied upon dependable power and sophisticated equipment.
Additionally, the Coalition introduced the ANA to standardized reporting procedures and
formats with some success. More often, however, senior leaders tended to use cell phones as the
preferred means to convey timely information, to involve themselves in routine staff work, or to
direct sensitive matters, including tactical operations.

3. How does the C2 system really work: policy/regulations versus structure versus reality and
   practice?

In practice, ANA leaders conveyed voice and written information within their own chain of
command. Typically, the ANA did not broadly share information, nor did they provide copies to
other staff sections, or post information on a Web site for common staff access. Not all ANA
operations and coordination had the required radios necessary to receive crucial command
communications. In addition, the fielding of ANA secure communications lagged behind
operational requirements.

The MoD-codified C2 guidance for the ANA may not reflect current Afghan operational reality,
nor be sustainable, for security operations in the future. The Afghans employ more abbreviated
and simpler methods than prescribed in western planning and command concepts, which is an
acceptable practice if recognized and acknowledged. Regardless of methods ultimately
followed, the C2 systems adopted by the ANA will require discipline, transparency, and clear
organizational constructs in order to become consistent, enduring, and sufficiently professional.

DOTMLPF Analysis
The U.S. uses a mnemonic methodology for staff planners to evaluate capability gaps before
undertaking new efforts in matters like force development, equipment acquisition, or major
installation construction. Collectively, this conceptual framework is referred to as
DOTMLPF. 20 Analyses of the key DOTMLPF areas below are valuable in identifying gaps in
the context of strategic direction, requirements, and overall force development. These
categories are:
         •        doctrine
         •        organization
         •        training
         •        materiel
         •        leadership
         •        personnel
         •        facilities



20
     Joint Publication: 1-02, DoD Dictionary of Military and Associated Terms



                                                        62
Using the DOTMLPF framework to evaluate the essential functions of a command and control
military system, we concluded the development of the ANA command and control, and
coordination capability to be marginally sufficient at the time of this assessment.

The Coalition and ANA had developed a C2 foundation, but while concurrently fighting the
insurgency, had recently expanded their organizational structures based upon emerging and
changing ANA C2 requirements. As an example, within the past 2 years the ANA has
significantly modified its structures by adding the GFC, ACCC, and ANASOC within its C2
framework.

The DOTMLPF model gives insight into the strengths and weaknesses of ANA C2 system.

•   Doctrine. ANA Training and Education Command,with U.S. and Coalition assistance,
    faced a formidable task of providing timely doctrine for evolving C2 organizational
    structures. Significant ANA doctrine was still in translation, advisors had already translated
    63 U.S. doctrinal publications into Dari, and the ANA had approved 41 foundation
    publications. However, draft ANA Regulation 1.3-6 Command and Control remained in draft
    and waited field-testing. In May 2010, the Afghan Air Force codified their C2 procedures in
    the Air Command and Control doctrine.

•   Organization. The approved and signed MoD Organizations and Functions Manual set
    clear C2 guidance for the major operational commands and functional organizations. Despite
    having formally established organizational entities and their functions, challenges in
    following some C2 organizational procedures remained. Examples of organizational
    development problems included:

       o a disparity between the established General Staff and the fledgling GFC with respect
         to roles and missions,
       o inability of the ACCC to assume full functionality as a C2 center, and
       o lack of unity of effort in the OCCs because of long-term development and absence of
         a single support mechanism.

    In addition, many ANA organizations were driven by their leader’s personality rather than by
    a formal institutional process, and this often created dysfunction.

•   Training. The U.S. and Coalition advisors demonstrated concerted effort in force
    generation to equip, train, and field ANA units. The U.S. and Coalition established training
    institutions and generated qualified Afghan instructors as cadre, thus promoting an Afghan
    train-the-trainer capability and cultural face to military training. Not all current senior
    Afghan leaders had attended formal courses related to C2; whereas, the younger generation
    and non-commissioned officer (NCO) corps had begun to gain the benefit of foundational
    courses. This foundational education effort was in an early stage of development yet showed
    signs of progress. However, ANA Training and Education Command’s leadership and staff
    ability to visit training programs and courses of instruction throughout Afghanistan to ensure
    course continuity and doctrinal standardization was restricted due to resource limitations and
    priorities.

                                                63
•    Materiel. Baseline indicators of unit C2 effectiveness included the development of ANA
     units to shoot, move, and communicate. In most cases, established ANA units were
     adequately equipped; however, several disconcerting shortfalls detracted from equipment
     authorizations. Cross-leveling equipment 21 across the ANA continued to be a challenge for
     the Coalition and an enduring trial because of a propensity to hoard at various command
     levels and support organizations. A lagging logistics system continued to be the major
     inhibitor to substantial progress in unit execution of independent operations. For years,
     logistics development had been secondary to the force generation of combat formations
     within the ANA. Although logistics had received increased advisory attention in the past two
     years, reliable equipment resupply and delivery to Corps and below formations continued to
     be a daunting task. Additionally, the complexity of some equipment generally exceeded the
     capacity of the ANA personnel to properly operate and sustain. The effort to establish a
     modern fiber optic network for communications was tenuous and fragile, and the current
     network system was slow and unreliable.

•    Leadership. While competent in basic war fighting skills, few of the long-serving
     generals had experienced significant professional, sequential, modern military education
     opportunities that introduced joint and combined operations, interagency coordination, and
     the rights of individual soldiers in a values-based professional military force. It will take
     time for the younger Afghan officers who have become immersed in new models of
     leadership to assume positions of leadership at the highest levels of the ANA.

•    Personnel. Although policies designed to support the development of the ANA personnel
     system were published, institutional adherence to personnel management procedures could
     be too easily circumvented by various ANA and MoD power brokers external to the
     personnel process. External influence upon established policies clearly eroded the
     establishment of a fair and sound merit-based personnel system. Our team repeatedly heard
     the complaint that the personnel management system did not allow for the relief or dismissal
     of officers for cause, and that promotions, in some cases, were easily acquired if one had
     enough money to purchase them. Still others informed us that all the vast improvements to
     ANA systems and capability would matter little if soldiers did not receive their pay. Without
     pay, they would simply walk off the job and return home.

•    Facilities. In 2010, NATO Training Mission-Afghanistan (NTM-A) changed its policy
     regarding the construction of large-scale, permanent brick and mortar structures for the ANA
     according to U.S. military specifications. Serious questions had been raised about the ability
     of the ANA to maintain permanent facilities over the long term. Limitations in the U.S.’s
     ability to provide sufficient Coalition construction oversight was highlighted during the
     extensive construction scheduled for the 2011-12 transistion period. There were not enough



21
   The authority and ability to shift materiel inventory from one owner to meet the requirement of another. At the
theater strategic level and operational level, it is the process of diverting en route or in-theater materiel from one
military element to meet the higher priority of another. (Joint Pub 4-07)


                                                           64
   Contracting Officers’ Representatives (CORs) and available security forces for site
   protection in some sectors.

   As a result, NTM-A decided to erect fewer brick and mortar permanent facilities. It also
   decided to focus on renovating existing structures, allowing faster completion of facilities
   with fewer resources than building permanent structures. The new Ground Forces
   Command, for example, used existing ANA facilities at North Kabul International Airport
   (NKIA). The OCCs also used existing ANA facilities throughout the country. Use of fewer
   permanent facilities and existing structures permitted the U.S. and Coalition to meet most
   priority and time-sensitive projects countrywide.

   The DoD IG team visited Regional Command (RC) North, RC South, and RC Capital and
   found the Corps C2 and coordination facilities adequate. However, construction of several
   operations centers was on-going. These operations centers included the new Afghan GFC
   military headquarters and the future National Military Command Center in Kabul, as well as
   the Interagency Coordination Center for the GFC.

DoD IG assessment of the ANA application of the DOTMLPF methodology continues in the
following discussion as the team analyzed the actual development of the ANA C2 posed by the
bold-faced questions following. After applying the U.S. DOTMLPF methodology to frame our
observations of the ANA above, the DoD IG assessment team then focused on seven questions to
analyze ANA development in key and essential C2 functions.

Can the ANA Establish and Demonstrate Commanders’
Intent?
Yes, but initiative needs reinforcement.
The planning and development of Operation NAWEED, the operational plan for the current solar
year, demonstrated the ANA’s ability to establish commanders’ intent. The ANA led this
combined planning effort over 38 meetings with representatives from the MoD, MoI, NDS, and
the non-security ministries. The ANA used written ciphers (orders) and tracked them via manual
log entry at the NMCC, validating their compliance with doctrine and established procedures.

The ANA made limited use of automated tools to communicate with encrypted email, but the use
of encryption was nowhere near an acceptable level by Coalition standards. The use of cell
phones by the ANA continued to be an important tool for time-essential communications. The
overuse of cell phones to pass unencrypted sensitive information was an operational security
concern to advisors.

Rehearsal of Concept (ROC) drills for major operational events proved beneficial in promoting
coordinated action and transparent communication among units. Supporting commands
understood how each contributed to the overall ANA operation. ROC drills enabled the Afghans
to identify shortfalls in their operational planning before deploying to the field. Rehearsal
techniques promoted the understanding of commanders’ intent.



                                              65
Corps operations centers received guidance from higher authority, and the Corps staff analyzed
the orders for courses of action. In cases where brigades were required to accomplish specified
tasks, the Corps operations centers would transmit ciphers to the brigades for assessment and
development of their tactical plans. Commanders’ intent appeared to be understood and
implemented at the brigade level. However, specific examples of ANA brigades and kandaks 22
operationally executing commanders’ intent were outside the scope of this assessment.

Successful implementation of commander’s intent required a certain degree of initiative. With
respect to implementing commander’s intent, some subordinates appeared reluctant to act in the
absence of specific instructions. For example, in preparation for a short-term absence, a
commander can normally delegate authority to a subordinate. However, in Afghanistan, without
a formal cipher supporting that delegation, subordinates typically hesitated to assume the
commander’s role. This inability to take initiative led to inaction and failure to resolve problems
during the absence of the commander. Publishing individual ciphers authorizing subordinate
level decision-making was inefficient and remained a cumbersome process, but was still the
traditional prevailing practice.

                                     Figure 14. ANA Combined Planning




                  Source: DoD IG




22
     A kandak is an Afghan battalion sized organization.


                                                           66
Can the ANA Determine Roles, Responsibilities, and
Relationships through Organization, Structure, and
Processes?
Evolving, and needs continued emphasis.
The ANA had formally codified command and control responsibilities in the MoD Organizations
and Functions Manual (OFM). The OFM identified the role of each organization in the MoD
and specified how each contributed to the overall security and functional capability in supportof
the GIRoA. The OFM provided a critical keystone in describing the roles, responsibilities,
authorities, and structure of the ANA.

The ANA also took positive steps in building the doctrinal structure of Afghan C2 by
formulating Air Command and Control doctrine and in writing the ANA field manuals.

Presidential Decree 2497, issued in July 2010, attempted to describe the desired coordination
between the ANA and provincial governors, and indicated a concerted, centralized effort to
structure roles, relationships, and processes across the GIRoA. Overall, the ANA was maturing
in formalizing its C2 structure; however, significant challenges required continued attention.

Personal power relationships or tribal affiliations had a pervasive effect that influenced the
processes of established, formal organizational hierarchies, and often circumvented impartial,
objective personnel actions. At times, these informal relationships put commanders in the
difficult position of commanding units without the authority to make key decisions; yet as
commanders, they retained responsibility to do so.

On the other hand, some organizational structures deliberately decentralized ANA power in
order to balance power brokers. For example, the Coalition promoted the establishment of
Ground Forces Command to diffuse absolute control of the ANA previously held by the General
Staff, yet also to serve as a unifying mechanism to unite the Corps Commanders under a single
operational level GFC commander. As a result, field commanders will need to become more
interdependent in order to achieve unity of effort toward national objectives. When fully
achieved, this cooperation could unify and balance the ANA command structure, preventing one
entity from becoming too strong or independent.

Can the ANA Establish C2 with Rules and Constraints?
Yes, marginally.
The ANA had made significant progress in developing the ability to establish command and
control with rules and constraints through several documents governing multiple agencies.
Examples of progress included Operation NAWEED, ACCC doctrine, and the ANP’s “Gold-
Silver-Bronze” policing construct. The ANA development of Operation NAWEED clearly
demonstrated maturation in deliberate planning, with acceptance of national accountability and
risk.



                                               67
The ACCC doctrine established policy and imposed timelines for mission planning and
scheduling, instituting operating rules for the AAF to meet its mission requirements. Coalition
Air Advisors tracked compliance with the policy and reported improvement in performance.

Operationally, the execution of the “Gold-Silver-Bronze” construct for security response to
threatening security events was a reasonable success during the coordinated terrorist attacks
launched by the Taliban in Kabul in April 2012. The MoI/ANP used this command and control
methodology to coordinate their response after the U.S. Embassy attack in 2011. Execution of
the methods prescribed required a disciplined shift from the previous Afghan approach to C2.

While the ANA demonstrated capability to establish C2 rules and constraints, institutional
discipline was inconsistently applied to the rules and constraints it established. For example, the
AAF developed air C2 doctrine, yet allowed senior leaders to manipulate this doctrine for their
personal benefit. Military leadership circumvented the established C2 process with short notice
requests for priority flights. As a result, the number of executive missions routinely exceeded
the approved Afghan Air Force flight schedule. This practice made it difficult for the fledgling
air force to build an effective C2 capability using a formally established air mission-planning
program. Moreover, reacting to senior leader individual priorities did not allow for scheduled
aircraft maintenance, training, and operational missions based upon available airframes and crew
qualifications. Acceptance of more executive flight requests than the system could
accommodate compromised general support to the ANA, the training of AAF pilots, and made it
difficult to hold the AAF leaders and staff accountable for the over-extension of scarce
resources. Although some senior ANA leaders still resisted following written MoD guidance,
Coalition air advisors had made progress through key leader engagements in addressing this
challenge.

Can the ANA Monitor and Assess the Situation and
Progress?
Marginally.
A core function of C2 is the ability of commanders to formulate decisions using battlefield data
provided by operational units and intelligence sources. Monitoring of the situation is critical for
leaders to identify progress or make adjustments as needed to ensure success. The ANA’s ability
to monitor and assess the battle space had reportedly improved, in part, due to continuous staff
training provided by partnered Coalition forces.

The ANA did not have the knowledge and expertise, however, to analyze spot reports and review
Commander’s Critical Information Requirements (CCIRs) in any significant way. For example,
the NMCC staff manually entered the data displayed on their ‘knowledge wall.’ The ANA did
not have the capability to track trends using the information compiled from operational units and
intelligence sources. The Afghan intelligence community generally lacked the tools or expertise
to conduct in-depth analysis of operational or intelligence reports. A senior ANA intelligence
official was especially critical of this inability to conduct analysis within the ANA.




                                                68
                        Figure 15. Knowledge Wall within the NMCC




                      Source: DoD IG

At Corps and below, the ANA displayed maps updated on a daily basis to depict unit operations
and mission objectives. However, the Corps did not always share threat information with
subordinate units. Overall, data collected appeared to lack the application of any kind of
meaningful analysis. Although, the OCCs and the ANA reported information daily to higher
headquarters via e-mail, the content, utility, and analysis of information in these reports was
questionable.

Overall, the ANA’s ability to monitor and assess the battle space was improving, but it still
lacked the analytical element needed to be an effective C2 operation.

Can the ANA Demonstrate Leadership by Inspiring,
Motivating, and Engendering Trust?
Yes, but with challenges.
In general, there was no lack of leadership capability in the ANA. In fact, many advisors
characterized their officer and NCO counterparts as strong leaders with an apparent warrior
ethos. In particular, leaders of the ANA Commandos (ANACDO) and ANA Special Forces
(ANASF) stood out in this respect as strong leaders. Similarly, the ANA displayed capable
leadership within its ranks, but not as uniformly.

The existing personnel system made it difficult to remove ineffective leaders. Removal of senior
ANA officers proved problematic as influential power brokers backed ineffective leaders.
Likewise, the ANA personnel system was vulnerable to exploitation by officers who purchased
positions with little regard to appropriate personnel procedures or to the leadership a particular
unit needed. Instances of ANA abuse of the personnel management system led to a leadership
deficit, and this abuse affected the legitimacy of some leadership positions.




                                                69
Communications: Is Information Passed Securely and
Efficiently?
Inconsistent.
ANSF command and control was comprised of two separate MoD and MoI computer networks.
Advisors reported the ANA satellite based network (MoD-Net) in use was slow and expensive.
Across Afghanistan, installation of MoD-Net capability in operations centers and coordination
centers was an on-going effort. In addition, the U.S. and Coalition supported GIRoA with the
installation of a fiber optic network to improve transmission of data and communications. The
network installation planned for three phases of construction, and as of March 2012, phase one
installation was 50 percent complete.

The ANA communicated primarily via cell phone and landlines, particularly during times of
operational urgency. ANA Corps and brigades provided daily status reports up and down the
ANA chain of command to the National Military Command Center and horizontally to the
OCCs. Advisors indicated the daily operational summary ANA reports, particularly those
intelligence related, contained raw information without analysis. ANP and ANA radios were not
interoperable. Therefore, ANA and ANP reporting to OCCs was a critical means and process for
the battle space owner to build an effective common operating picture of the security situation.

The fielding of communication and computer equipment in operations centers and coordination
centers was inconsistent. Each of the operations centers we observed had radio rooms; however,
it was not clear if all radios were in working condition. In many cases, the ANA unit did not
have all the radios allocated by its tashkil. 23 On a positive note, ANA representatives reported
that they could turn broken radios into the regional logistics support center (RLSC) and have a
replacement issued while their radio was being repaired. ANA officers also reported some video
teleconferencing (VTC) and e-mail encryption capability.

The overall complexity and sustainability of the communications systems and networks was a
key concern to advisors and senior ANA officers. Limited Afghan education and literacy rates
influenced their ability to operate and maintain various highly technical systems. However, the
use of contractors provided a stopgap solution to allow operation and maintenance of these
systems until the Afghan capacity matured.

Overall, the security and efficiency of the ANA communication system was widely variable.
Secure means of communication were not consistently used or available to all commanders, yet
they appeared able to transmit information effectively in the clear by non secure means via
telephone. Advisor efforts to improve the overall security and efficiency of the ANA
communications system were a continuing work in progress.




23
  Tashkil is an authorization document for equipment, vehicles, and personnel for the Afghan National Security
Forces.


                                                       70
                   Figure 16. Communication Center at a Brigade Tactical
                                   Operations Center




                 Source: DoD IG

Intelligence: Does the ANA Intelligence System Provide
Feedback to Commanders to Inform Their Next Decision?
Not without Coalition Help.
ISAF produced extensive multi-sourced intelligence products for the Coalition and selectively
provided reports to inform the ANA. Information from multiple forums guided ANA combat
operations. Although human intelligence was an ANA strength, they could not provide
intelligence from sophisticated systems, nor contribute more than rudimentary analytical
capabilities. The U.S. and Coalition intelligence support remained a basic requirement to
conduct combat operations and for the ANSF to assume lead in security operations.

The Coalition-led Afghan Intelligence Transition Directorate (AITD) was responsible for
expediting the development of an effective information and intelligence capability for the ANSF
while still conforming to Afghan national intelligence protocols to protect sources, methods, and
capabilities. The ANA intelligence career field has low rates of literacy and technical
proficiency, as well as personal reliability problems. These deficiencies have not been
suggiciently corrected for the field to meet modern intelligence organizational standards. As a
result, AITD indicated it advocated a more sustainable intelligence enabler solution in which the
U.S. and Coalition forces would provide the ANA effective, easy to use low-tech equipment to
meet their basic requirements.

This low-tech AITD approach, along with organizational changes such as the introduction of
newly formed military intelligence companies to improve analysis at Corps level, could
satisfactorily meet the challenges of the current insurgency. Although still evolving, this overall
emphasis on development of fundamental intelligence collection and analytical capability should
                                                71
provide an adequate organic intelligence capability required by the ANA. Therefore, although at
this stage in ANA development, the U.S. and Coalition strategy appeared logical, the
development of ANA intelligence processes, structure, and capabilities are areas that continue to
need more in-depth analysis and should be a focus for future assessment, as the Coalition, along
with the Afghan government, determine its role and presence beyond 2014.

                              Figure 17. OCC Intelligence Map




                 Source: DoD IG

Other Issues Affecting Development of ANA C2
Afghan culture and history influenced the development of the ANA C2, and coordination
system. Introduction of western doctrine may not totally address ANA requirements, capability,
and needs. The Coalition may need to anticipate Afghan variation away from doctrinal western
planning and C2 concepts. Unlike unit and staff evaluations, such as the Commander’s Unit
Assessment Tool, IJC had not developed a formal methodology to evaluate the ANA C2 system.

ANA Decision-Making Processes
The ANA exhibited mixed acceptance of the western Military Decision Making Process model
which had been introduced into the ANA doctrine in previous years. The military decision
making process taught in U.S. service institutions is a procedural planning methodology to
understand the situation and mission, develop a course of action, and produce an operation plan
or order to accomplish a mission, objective or task. The Afghan officer corps was a mixture of
former Soviet, Northern Alliance, and Coalition-trained officers, and they had no common frame
of reference to the MDMP in terms of their professional, sequential military education system.

Advisors reported the MDMP process was valued for its deliberate long-range planning
capability, but ANA commanders and staff viewed it as too cumbersome for executing timely
tactical military operations. In our judgment, insufficient exposure to the MDMP model in the


                                               72
ANA training system may have contributed to a lack of acceptance. Advisors reported the ANA
had begun using a simplified version of MDMP adapted to ANA operational needs.

However, the ANA C2 system still must adhere to the basic principles of accountability,
discipline, and transparency, and have clear organizational constructs in order to support an
enduring and professional security force.

Advisor Measurement of ANA C2 Progress
The IJC approach in evaluation of C2 concentrated on the tangible, quantitative aspects of
measuring personnel, equipment, and training associated with overall unit effectiveness rather
than evaluating functional processes, like command and control. IJC did not measure the
development of the ANA C2 system with metrics (Commander’s Unit Assessment Tool (CUAT)
or Capability Milestones (CM)) from advisor field reports that evaluated and developed in line
with campaign plan objectives; however, they did measure unit operational effectiveness in
traditional terms of personnel manning and equipment on hand.

Conclusion
After analyzing the U.S. and Coalition efforts to develop the ANA Command and Control
Systems through DOTMLPF, the C2 analysis framework, we determined that their efforts have
been marginally successful.

The ANA demonstrated an improving capability to successfully conduct COIN missions, and its
units could orchestrate rudimentary coordination and communication with other elements of the
ANSF. We judged their C2 capability as marginal because their execution of the command and
control function was acutely dependent upon enabler support provided by the Coalition. In
addition, a number of other resource-intensive, high-risk challenges remained critical and if not
properly resolved could degrade ANA C2 effectiveness rather than improve it.

These difficult challenges included adapting to evolving organizational structures, overcoming
the limited command authority to remove ineffective senior officers, logistics impediments,
complexity of technology and automation, and the significant reliance on U.S. and Coalition
enablers. In addition, the ANA’s ability to compile, analyze, assess, and provide operational
intelligence related information to leadership in a timely manner was of particular concern.

The merging of western C2 doctrine and methods with Afghan cultural considerations, heavy
reliance on Coalition enablers, and the challenging threat environment made the development of
the ANA C2 system a difficult task. Significant U.S. and Coalition efforts will need to continue
in order to fully develop a mature ANA C2 system.




                                                73
Page Intentionally Blank
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from January to May 2012 in accordance with the standards
published in the Quality Standards for Inspections. We planned and performed the assessment
to obtain sufficient and appropriate evidence to provide a reasonable basis for our observations
and conclusions, based on our assessment objectives. The team conducted site visits in
Afghanistan from April 15 to May 3, 2012.

The objectives of this assessment were to determine whether the U.S. Government and Coalition
strategy, guidance, plans, end-state deadlines and resources are adequate for the development
and execution of an effective ANSF Command and Control System.

Primary assessment tools to frame our analysis of the command and control structure included:
   • the overarching Joint Doctrine DOTMLPF construct model,
   • Analysis Framework for evaluating national command and control structures,
   • Commander’s Unit Assessment Tool used by ISAF/IJC, and the
   • Capabilities Milestone rating (CM) used by NTM-A/Combined Security Transition
       Command-Afghanistan (CSTC-A).

We reviewed documents such as U.S. federal laws and regulations, including the National
Defense Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD directives
and instructions, and appropriate U.S. Central Command, NATO/ISAF, IJC, U.S. Forces-
Afghanistan (USFOR-A), NTM-A/CSTC-A, and Afghan MoD guidance, plans, and briefings.

The assessment team deliberately solicited a broad background and experience level of those
ANSF security personnel working Afghan command and control issues. We reviewed the
programs and processes used in the development and function of the ANSF, and spoke with
appropriate U.S./Coalition and Afghan leaders and managers at all levels, ranging from general
officers, to staff officers and technicians, to training and mentor team members in the field.

The ANA C2 assessment chronology was as follows:

January to April 2012                        Research and fieldwork in CONUS
April 15 to May 5, 2012                      Fieldwork in Afghanistan
May 3, 2012                                  Out-brief to IJC, and NTM-A/CSTC-A
May to October2012                           Analysis, report writing, and reviews
November 16, 2012                            Draft report issued
December 28, 2012                            Management comments received




                                                75
Limitations
We limited our review to DoD-funded programs, NATO-funded programs, and international
donation programs supporting the development of the ANA.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AAF                 Afghan Air Force
ABP                 Afghan Border Police
ACCC                Air Command and Control Center
AHRIMS              Afghan Human Resources Management Information System
AITD                Afghan Intelligence Transition Directorate
AMR                 Air Movement Request
AMoD                Assistant Ministry of Defense
ANA                 Afghan National Army
ANASOC              Afghan National Amy Special Operations Command
ANATEC              Afghan National Army Training and Education Center
ANCOP               Afghan National Civil Order Police
ANP                 Afghan National Police
ANSF                Afghan National Security Forces
ASL                 Authorized Stockage Level
AUP                 Afghan Uniformed Police
C2                  Command and Control
CCIR                Commander’s Critical Information Requirements
COIN                Counter Insurgency
COP                 Common Operating Picture
CM                  Capability Milestones
CSTC-A              Combined Security Transition Command-Afghanistan
CUAT                Commander’s Unit Assessment Tool
DoD IG              Department of Defense Inspector General
FOC                 Fully Operationally Capable
FRAGO               Fragmentary Order
GFC                 Ground Forces Command
GIRoA               Government of the Islamic Republic of Afghanistan
GS                  General Staff
HF                  High Frequency
ICC                 Interagency Coordination Cell (located at Ground Forces Command)
IJC                 ISAF Joint Command

                                                 76
IPT         Integrated Planning Team
ISAF        International Security Assistance Force
IT          Information Technology
JOC         Joint Operations Center
kandak      Afghan Battalion Sized Organization
MAG         Ministerial Advisory Group
MEDEVAC     Medical Evacuation
MDMP        Military Decision Making Process
MoD         Ministry of Defense
MoD 14      Ministry of Defense Form 14
MoI         Ministry of Interior
NATO        North Atlantic Treaty Organization
NCO         Non-Commissioned Officer
NDS         National Directorate of Security
NIMS        National Information Management System
NMCC        National Military Command Center
NPCC        National Police Command Center
NTM-A       NATO Training Mission-Afghanistan
NSOP        National Standard Operating Procedures
OCC         Operations Coordination Center
OCC-P       Operations Coordination Center - Provincial
OCC-R       Operations Coordination Center - Regional
OFM         MoD Organizations and Functions Manual
OP          Operation
OP NAWEED   Afghan led Operations Plan (OPLAN) for Solar Year 1391
OP Saleb    a one-time push of supplies to the RLSCs over a 15-day period
OPT         Operational Planning Team
RLSC        Regional Logistics Support Command
ROC Drill   Rehearsal of Concept Drill
RSC         Regional Support Command
SFA         Security Force Assistance
SFAT        Security Force Assistance Team
SMW         Special Mission Wing
SOF         Special Operations Forces
tashkil     Dari for an authorized Afghan Equipment and Manning Document
TOE         Table of Organization and Equipment
Tranche     Transition Phases
UHF         Ultra High Frequency
USAFCENT    U.S. Air Force Central Command
USFOR-A     U.S. Forces-Afghanistan
VHF         Very High Frequency
VTC         Video Teleconference
WOC         Wing Operations Center



                                    77
Page Intentionally Blank
Appendix B. Summary of Prior Coverage
During the last four years, the DoD, the Government Accountability Office (GAO), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), the Commission on Wartime
Contracting, the Congressional Research Service, and the DoD IG have issued a number of
reports discussing the development of the ANSF.

Unrestricted DoD reports can be accessed at http://www.defense.gov/pubs.
Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted SIGAR reports can be accessed at http://www.sigar.mil.
Unrestricted Commission on Wartime Contracting reports can be accessed at
http://www.wartimecontracting.gov/index.php/reports.
Unrestricted Congressional Research Service Reports can be accessed at http://www.crs.gov.
Unrestricted DoD IG reports can be accessed at http://www.DoD IG.mil/audit/reports.
Some of the prior coverage we used in preparing this report has included:

Government Accountability Office
GAO-12, “Afghanistan Report (current draft is classified),” Final version released 23 July 2012.

GAO-11-760, “Iraq and Afghanistan: Actions Needed to Enhance the Ability of Army Brigades
to Support the Advising Mission,” August 2, 2011.

GAO-11-710, “Afghanistan: Actions Needed to Improve Accountability of U.S. Assistance to
Afghanistan Government,” July 2011.

GAO 11-66, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed;
Long Term costs Not Determined,” January 27, 2011.

GAO-10-842T, “Preliminary Observations on DoD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 25, 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 15, 2010.

GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s Border Area with
Afghanistan,” February 23, 2009.

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008.

Department of Defense Inspector General
DoDIG-2012-109 Assessment of U.S. Government and Coalition Efforts to Develop the Afghan
Local Police.


                                               79
DoD IG-2012-104, “DoD Needs to Improve Vocational Training Efforts to Develop the Afghan
National Security Forces Infrastructure Maintenance Capabilities,” 18 June 2012.

DoD IG Report No. DoDIG-2012-34 Assessment of Afghan National Security Forces Metrics—
Quarterly (U), Afghan National Army (ANA) Sep 2011 – Feb 2012 (CLASSIFIED REPORT).

DoD IG Report No. DoD IG-2012-028, “Assessment of US Government and Coalition Efforts
to Develop the Logistics Sustainment Capability of the Afghan National Army,” 9 December
2011.

DoD IG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009.

DoD IG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.

Special Inspector General for Afghanistan Reconstruction
(SIGAR)
Audit 12-04, “DoD Improved Its Accountability for Vehicles Provided to the Afghan National
Security Forces, but Should Follow Up on End-Use Monitoring Findings,” January 12, 2012.

Audit 12-2, “Better Planning and Oversight Could Have Reduced Construction Delays and Costs
at the Kabul Military Training Center,” October 26, 2011.

SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010.

Congressional Research Service
“Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” February 6, 2012.




                                             80
Appendix C. Criteria
Government of the Islamic Republic of Afghan, Afghan
Ministry of Defense, ISAF Policy, U.S. Policy, and DoD Policy
  1. Afghan Ministry of Defense, “Air Command and Control Doctrine,”
     (Dari-English), May 2011. Air Command and Control Doctrine is the initial
     framework that the MoD uses to control and schedule resources to best use the AAF to
     meeting GIRoA’s security requirements. The document specifies how air missions are
     requested, validated, prioritized, tasked, and reported.

  2. Afghan National Army 1.3-6, “Mission Command: Command and
     Control of Army Forces,” June 1, 2007. ANA 1-3.6 is the Army’s key
     integrating manual for C2. It provides the basis for C2 doctrine, tactics, techniques, and
     procedures in all Army publications. It promotes common understanding of the
     fundamentals and concepts of C2 in Army operations, and supports joint and Army
     doctrine. This edition is in draft revision as of May 2012.

  3. Afghan National Army 1-6 “Communications,” May 2009. This
     publication describes combat signal support in the Afghanistan National Army. It is
     designed for existing communications networks within the ANA.

  4. Afghan National Army Inherent Law for Officers and NCOs, published
     in the Ministry of Justice Official Gazette, July 2010. This publication
     manages employment, transfer, promotion, leave, award, punishment, separation,
     resignation, retirement, reserved and other ANA officers and NCOs inherent affairs.

  5. Afghan National Army Regulation 030: “Officer Assignments,
     Transfers, and Details.” The regulation was developed by the AMoD P& E,
     which provides the policy and general instructions for the Afghan National Army
     on the Officer Assignments Transfers and Details system. The policy establishes
     the procedures and processes to implement and execute the Officer Assignments
     Transfers and Details system.

  6. Chief of General Staff Order # 358, “About the Regional Corps and
     111th Capital Division Command and Control,” dated 04/11/1390,
     January 24, 2012. This order states the GFC is at the end of its Phase 2 training plan.
     As such, the Chief of the General Staff reminds stakeholders like the regional corps and
     Kabul’s 111th Capital Division about revised reporting procedures. These procedures
     include reports to the GFC, and GS G3 responsibility to integrate the GFC into the
     overarching C2 structure, as a preliminary headquarters, but not yet as a full-fledged C2
     node.



                                              81
7. Combined Directive 001/2011 between the International Security
   Assistance Force and the Afghanistan National Security Forces for
   the Conduct of Security Operations in Transitioning Areas. This
   document is classified.

8. Decree 4.0, Ministry of Defense, Office of the Assistant Minister of
   Acquisition, Technology, and Logistics, “Supported and Supporting
   Unit Logistics Policy and Support Procedures,” January 2009. This
   decree describes common procedures, formats, and forms for the communication of
   logistic information between supported activities and the supply and materiel
   management of the MoD.

9. Decree 4.1, Ministry Of Defense, Office of the Assistant Minister of
   Acquisition, Technology, Logistics, “Transportation Management
   Policy and Procedures,” August 2010. This decree establishes transportation
   doctrine, policies, and procedures applicable for transportation and movement for the
   ANA. It recognizes that the NATO system must integrate with the ANA supply system
   in order to provide effective logistics/maintenance support to ANA operational units.

10. Decree 4.2, Ministry Of Defense, Office of the Assistant Minister of
   Acquisition, Technology, Logistics, “Materiel Accountability Policy
   and Procedures,” June 2009. This decree establishes the accounting policy for
   all materiel (including food, ammunition, vehicles, fuel, and equipment) that ANSF uses
   on a daily basis. Further, it states: “the MoD is merely the custodian of the Afghan
   government’s hard earned money and trust. Let no member of the ANA betray this trust
   by being a poor steward of its resources.”

11. Decree 467 Establishing GFC, June 2010, Implementation Order 2011.
    This presidential decree established a coordination committee among security
    organizations within Afghanistan. In effect, it attempts to place the provincial governor,
    who chairs the coordination and solidarity committee, in a supervisory role over units and
    their operations within the geographic boundaries of a province. The intent and wording
    of this decree created tension between the MoD and president of Afghanistan it appeared
    to give the provincial governors command of local ANA elements, creating a second
    ANA chain of command.

12. Decree 5001, Ministry of Defense “Organization and Functions
    Manual,” March 29, 2011. Prescribes the command relationships from the
    President of Afghanistan through the MoD and GS to all elements of the ANA. It also
    prescribes the organization and functions of all approved organizational structures
    (tashkil) of the offices of the MoD and GS of the ANA and AAF. This manual, along
    with existing Ministerial Decrees, policies, standard operating procedures and ANA and
    AAF regulations serves as the basis for assigning and coordinating staff actions.



                                           82
a. Chapter 23: Mission of the Office of General Staff, Chief of
   Operations (GS G3). This chapter directs the duties, organization, and
   responsibilities of the Chief of Operations. The Chief of GS G3 is under
   command of Chief of the General Staff and the Director of the General Staff
   (DGS). The Chief of GS G3 is the principal assistant and advisor for the CoGS
   for the planning and execution of current and crisis operations. He provides
   operational guidance and command direction to fight the current battle through
   National Military Operations Center (NMOC), and ensures for coordinated
   relationships with the corps and other ANA units with the respective GS
   department. The GS G3 is the dissemination funnel for all the ANA units through
   the NMOC and eventually the Ground Forces Command once they achieve FOC.

b. Chapter 32: Ground Forces Command. This chapter describes the
   mission, roles, responsibilities, and concept of operations for Ground Forces
   Command. The GFC Commander works directly for the Chief of the General
   Staff. Upon achieving operational capability, the Ground Forces Command will
   have Command and Control of all Afghan National Army Corps, 111th Division-
   Kabul and other assigned units (for temporary periods of time). It is responsible
   for conducting full spectrum, intelligence driven, and effects based military
   operations throughout Afghanistan as directed by the Minister of Defense and the
   Chief of General Staff in order to achieve military objectives throughout
   Afghanistan.

c. Chapter 33: Afghan National Army Special Operations
   Command (ASOC). This chapter describes the roles, responsibilities, concept
   of operation, and special mission approval process for the ASOC. The ASOC
   Commander reports directly to the Chief of the General Staff. The mission of
   ASOC is to organize, man, train, educate, equip, deploy, and sustain all Afghan
   National Army Special Operations Forces in order to conduct operations in
   support the Islamic Republic of Afghanistan's National Military Strategy.

d. Chapter 34: Mission of the Afghan Air Force: This chapter directs the
   establishment of the AAF. The AAF is responsible to provide trained and ready
   airmen and soldiers to execute critical tasks from the air in support of the Afghan
   National Army and, when directed by the Minister of Defense and the CoGS,
   provides air support to civil authorities of Afghanistan.

e. Chapter 37: Army Support Command. This chapter describes the
   mission, roles, responsibilities, and organization for the Army Support Command.
   The Army Support Command works directly for the Chief of General Staff to
   provide centralized command and control over six subordinate Regional Logistics
   Support Commands (RLSCs), and provides visibility of logistics operations to the
   Chief of the General Staff. In coordination with Operational and Supporting
   Commands, the Army Support Command, plans, coordinates, synchronizes,
   monitors and executes all operational-level logistics within and between
   Afghanistan’s regional areas of operations. The Army Support Command links

                                    83
          strategic national resources to tactical-level supported units through the
          employment of the RLSCs, and in coordination with higher headquarters, has the
          authority to shift logistical resources between RLSCs and supported units to meet
          the needs of national strategy.

      f. Annex A: Afghan National Army Command and Control
         Directive. The ANA Command and Control Directive details the command
         authority of the President of Afghanistan, the Minister of Defense and the First
         Deputy Minister through all levels of the Ministry of Defense, Chief of the
         General Staff, General Staff and subordinate commands. The subordinate
         commands include the Ground Forces Command, (Corps, 111 Division, Brigades
         and Kandaks), Afghan Air Force (Regional Air Wings, Groups and Squadrons),
         Afghan National Army Special Operations Command as well as all elements of
         Logistics, Recruiting, Training and Medical Commands. This C2 Directive
         ensures that commanders are focused at the appropriate level (national,
         operational or tactical) of command and understand their responsibilities and
         authority with respect to the troops they command.

      g. Annex B: Support of the Afghan National Army (Logistics
         Concept of Support). This annex describes the ANA logistics concept of
         support. Within the Ministry of Defense, the logistics system performs as an end-
         to-end process that consists of five major steps: acquisition, distribution,
         accountability, sustainment, and disposition. Those major process steps are
         translated into an overarching logistics concept of support that connects the
         strategic national level of logistics to the tactical unit level.

13. Draft Directive of the Authorities and Responsibilities of Ground
   Force Command and Chief of the General Staff of the MOD, undated.
   Results from an Integrated Planning Team tasked to identify responsibilities for the new
   GFC. Contentious effort, as some responsibilities were once the responsibilities of the
   General Staff. Divestiture of GS duties and agreement to new GFC roles has been a key
   milestone to understanding the function that the GFC will play in the overall ANA
   command and control architecture.

14. ISAF FRAGO 164-2009, Accelerating the Establishment of Operations
   Coordination Centres-Regional (OCC-R) and Operations Coordination
   Centres-Provincial (OCC-P) within Afghanistan, April 30, 2009. This
   document is classified.

15. ISAF Operations Plan (OPLAN) 38302 (Revision 6) ISAF Operations in
    Afghanistan, October 31, 2011. This document is classified.

16. Joint Directive Implementing Order 3501, September 16, 2007 and
    Presidential Decree 1730, March 2, 2008. This document was the forerunner
    of the OCC concept. President of Afghanistan implemented the Joint Directive with
                                          84
   Decree 1730, signed March 2, 23008. This Joint Directive outlined the initial concept of
   integration and coordination between security pillars in order to improve command and
   control (unity of purpose) and identified responsibilities for ‘coordination groups’ to
   support joint operations.

17. Ministerial Development Program for ANA Ground Forces Command,
    January 3, 2011. Coalition document outlining the status and challenges of standing
    up the Ground Forces Command, the desired CONOP for this new command, and general
    milestones leading up to 2012 and 2013.

18. Ministry of Defense Order No. 0517: “Maintaining Ethnic Balance in
    the ANA,” March 18, 2010. This order states that the departments, commands, and
    MoD deputies are ordered to implement the ethnic demographic percentage breakdown
    until the time an internationally accepted nationwide census is completed.

19. Operations Coordination Centre National Standard Operating
   Procedures (OCCNSOP) Version 2.2 Draft as of January 16, 2011. This
   39 page document is a comprehensive summary of the Coalition’s organizational effort to
   establish OCCs throughout Afghanistan. Includes tashkil Table of Organization and
   Equipment (TOE) information, communications nets, and reporting procedures.

20. United States Air Forces Central Command, Afghanistan National
   Security Forces Air Power Requirements Review, February 28, 2010.
   Based upon a December 2009 request from the Commander of the Combined Air Power
   Task Force Afghanistan and the ANA G-3, the USAFCENT Commander chartered a
   review of ANSF Airpower development progress to ensure existing plans enabled the
   GIRoA to conduct a full range of aviation operations supporting specific National
   Security and Military Strategy. Recommendations regarding the size and structure of the
   future Afghan Air Force were provided.

21. United States Army Doctrine Publication 6.0 “Mission Command,”
    May 17, 2012. Army Doctrine Publication (ADP) 6-0 presents the Army's guidance
    on command, control, and the mission command war fighting function. This publication
    concisely describes how commanders, supported by their staffs, combine the art of
    command and the science of control to understand situations, make decisions, direct
    action, and accomplish missions.




                                          85
Page Intentionally Blank
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

UNITED STATES
Department of Defense
•   Army War College Students and Instructors
•   Center for Naval Analysis
•   Joint Staff J2, DIA Afghanistan Pakistan Task Force
•   Joint Staff J5, Pakistan/Afghanistan Coordination Cell
•   National Defense University Students and Instructors

Department of Homeland Security
•   Federal Emergency Management Agency

AFGHANISTAN
NTM-A/CSTC-A
•   First Defense Minister Advisor
•   Vice Chief of General Staff Advisor
•   AMoD Advisors
        o AT&L
        o Strategy & Policy
        o Personnel & Education
        o National Disaster Response
        o Legal
•   AAF Advisors
•   ANA Training and Education Center Advisors
•   CJ3, CJ4, CJ6
•   DCG OPS
•   DCOM International Security Cooperation
•   DCOM Police Advisors
•   DCOM SPO and Staff Advisors
•   DCOM Army Advisors
•   DCOM SOF Advisor
•   International Security Assistance Office
•   NTM-A Chief of Staff




                                                87
ISAF Joint Command
•   ANSF Development
       o CUOPS
       o FUOPS
       o FUPLANS
       o CJENG
       o CJ4
•   Campaign Analysis and Future Requirements
•   CJ1, CJ2, Dep CJ2, CJ35, CJ4, CJ6, CJ7, CJ ENG, CJ MED
•   DCOS Joint Operations
•   DCOS Operations, International Security Assistance Force
•   DCOS Plans
•   Deputy DCOM Advisors
•   Deputy DCOM Stability Ops
•   Director Campaign and Transition Assistance Group
•   Fixed and Rotary Wing Advisors
•   GFC Advisors
•   ISAF SOF Advisor
•   NATO Advisor Assessment Branch
•   NPCC Advisors

Regional Commands
•   RC-South
      o Chief of Staff, RSC-South and selected staff
      o Kandahar Air Wing Advisors
•   RC- North
      o Commander, RC-North and selected staff
      o Commander, Regional Support Command (RSC)`-N and selected staff
      o 303rd Security Force Assistance Team OCC-R
•   RC- Capital
      o Commander, RC-Capital and selected staff
      o Commander RSC-C and selected staff

Afghan Ministry of Defense
    •   General Staff
           o Vice Chief of General Staff
           o G1, G2, G3, G4, G5, G6, G7
           o Vice Chief of Staff-Air
           o G3 Air Plans
           o Director NMCC and Staff
    •   Assistant Minister of Defense (AMoD) Strategy & Policy
    •   AMoD Personnel & Education
    •   AMoD National Disaster Response
    •   Afghan National Army Training & Education Center (ANATEC) Director

                                            88
•   Afghan Air Force
       o AAF HQ/A3
       o ACCC Director and Staff
       o Kandahar Air Wing Operations Center Staff
•   Ground Forces Command
       o Commander, GFC
       o Deputy Commander, GFC
       o G1, G2, G3, G33, G4, G5, G6, G7

Afghan Ministry of Interior
•   Chief of Staff
•   Director National Police Coordination Center and Staff

Afghan Corps and Brigades
•   205th Corps, RC- South
       o Commander, 205th Corps and Staff
       o Commander, 1st Brigade and Staff
       o OCC-R, Kandahar
       o OCC-P, Kandahar
•   209th Corps, RC- North
       o Commander, 209th Corps and Staff
       o Deputy Commander, 209th Corps
       o Commander, 3rd Brigade and Staff
       o OCC-R, Mazar-E Sharif
•   111th Capital Division, RC-Capital
       o Commander, 111th Capital Division
       o Commander, 2nd Brigade and Staff
       o OCC-Kabul




                                           89
Page Intentionally Blank
APPENDIX E. Management Comments
NATO Training Mission - Afghanistan Comments   Final Report
                                                Reference




                     to add JPEG file




                                91
NATO Training Mission - Afghanistan Comments   Final Report
                                                Reference




                Click to add JPEG file




                                 92
NATO Training Mission - Afghanistan Comments      Final Report
                                                   Reference




                                               We incorporated this
                                               updated process
                                               chart at page 27 of
                                               the final report.
                Click to add JPEG file




                                 93
NATO Training Mission - Afghanistan Comments   Final Report
                                                Reference




                Click to add JPEG file




                                 94
NATO Training Mission - Afghanistan Comments   Final Report
                                                Reference




                Click to add JPEG file




                                 95
NTM-A/CSTC-A Comments                  Final Report
                                        Reference




              Click to add JPEG file




                               96
International Security Force Joint Command Comments   Final Report
                                                       Reference




                 Click to add JPEG file




                                  97
International Security Force Joint Command Comments   Final Report
                                                       Reference




                 Click to add JPEG file




                                  98
9th Air & Space Expeditionary Task Force Comments   Final Report
                                                     Reference




                 Click to add JPEG file




                                  99
Page Intentionally Blank
APPENDIX F. Report Distribution
OFFICE OF THE SECRETARY OF DEFENSE
SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS
UNDER SECRETARY OF DEFENSE FOR POLICY
ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS
ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS
DEPUTY ASSISTANT SECRETARY OF DEFENSE, AFGHANISTAN, PAKISTAN, AND
   CENTRAL ASIA

JOINT STAFF
CHAIRMAN OF THE JOINT CHIEFS OF STAFF
DIRECTOR, PAKISTAN/AFGHANISTAN COORDINATION CELL

COMBATANT COMMANDS
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCES//U.S. FORCES
  AFGHANISTAN*
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCES JOINT COMMAND*
COMMANDER, NATO TRAINING MISSION/COMBINED SECURITY TRANSITION
  COMMAND-AFGHANISTAN*

DEPARTMENT OF STATE
U.S. AMBASSADOR TO AFGHANISTAN
INSPECTOR GENERAL, DEPARTMENT OF STATE

DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE ARMY

DEPARTMENT OF THE NAVY
NAVAL INSPECTOR GENERAL

DEPARTMENT OF THE AIR FORCE
AUDITOR GENERAL OF THE AIR FORCE

OTHER DEFENSE ORGANIZATIONS
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
GOVERNMENT ACCOUNTABILITY OFFICE




                                   101
Page Intentionally Blank
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
